<html>
<title> - OVERSTAYING THEIR WELCOME: NATIONAL SECURITY RISKS POSED BY VISA OVERSTAYS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










   OVERSTAYING THEIR WELCOME: NATIONAL SECURITY RISKS POSED BY VISA 
                               OVERSTAYS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 14, 2016

                               __________

                           Serial No. 114-75

                               __________

       Printed for the use of the Committee on Homeland Security
                                     




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-378 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
   
   
   
   
   
   
   
   
   
   
                    COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                   Martha McSally, Arizona, Chairman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Loretta Sanchez, California
Candice S. Miller, Michigan          Sheila Jackson Lee, Texas
Jeff Duncan, South Carolina          Brian Higgins, New York
Lou Barletta, Pennsylvania           Norma J. Torres, California
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
                    Kris Carlson, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security..............................................     5

                               Witnesses

Mr. John Wagner, Deputy Assistant Commissioner, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................     9
Mr. Craig C. Healy, Assistant Director for National Security 
  Investigations, U.S. Immigration and Customs Enforcement, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    17
  Joint Prepared Statement.......................................     8
Ms. Kelli Ann Burriesci, Deputy Assistant Secretary, Screening 
  Coordination Office, U.S. Department of Homeland Security:
  Oral Statement.................................................    19
  Joint Prepared Statement.......................................     8
Mr. Robert P. Burns, Deputy Director, Homeland Security Advanced 
  Research Projects Agency, Science and Technology Directorate, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    21
  Joint Prepared Statement.......................................     8

 
   OVERSTAYING THEIR WELCOME: NATIONAL SECURITY RISKS POSED BY VISA 
                               OVERSTAYS

                              ----------                              


                         Tuesday, June 14, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Martha McSally 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives McSally, Smith, Duncan, Barletta, 
Hurd, Vela, Jackson Lee, and Torres.
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine DHS's 
entry-exit and visa overstay efforts.
    Before we begin today, I would ask that we observe a moment 
of silence to honor those killed and wounded in the terror 
attack in Orlando.
    Thank you. Our thoughts and prayers go out to the victims' 
families of this terrible tragedy.
    I now recognize myself for an opening statement.
    Border security naturally evokes images of the hot Arizona 
desert, dusty border roads, agents, and green fencing and 
camera towers. But a broader view of border security recognizes 
that there is more than just security along the Southwest 
Border to consider. Time and time again terrorists have 
exploited the visa system by legally entering America.
    The 9/11 Commission put it this way: ``For a terrorist, 
travel documents are as important as weapons.'' The 
commission's focus on travel documents is not surprising. Since 
the 1993 World Trade Center bombing, terrorists have abused the 
hospitality of the American people to conduct attacks here at 
home.
    Mahmud Abouhalima, an Egyptian convicted of the 1993 World 
Trade Center bombing, worked illegally in the United States as 
a cab driver after his tourist visa had expired. At least 4 of 
the 
9/11 hijackers overstayed their visas or were out of status, a 
missed opportunity to disrupt the attacks that killed nearly 
3,000 of our fellow Americans.
    Among the most important weaknesses the attackers exploited 
was the porous outer ring of border security. The hijackers 
passed through the U.S. border security a combined total of 68 
times without arousing any suspicion. More recently, Amine El 
Khalifi attempted to conduct a suicide attack on the U.S. 
Capitol in 2012. He had been in the country since 1999 on a 
tourist visa but never left.
    Another man, arrested in the aftermath in the Boston 
Marathon bombing, who helped destroy evidence, was able to 
return to the United States despite being out of status on his 
student visa.
    Clearly visa security is an important element of keeping 
the homeland secure. To put the National security risks in 
perspective, a widely cited 2006 Pew Hispanic Center Study 
indicated that as many as 40 percent of all illegal aliens who 
come into our country do not cross the desert in Arizona, 
California, or Texas, but come through the front door at our 
land, sea, and air ports of entry with permission and then 
overstay their welcome.
    Earlier this year the Department of Homeland Security 
released a visa overstay report demonstrating the visa overstay 
problem may be much worse than previously thought. In fiscal 
year 2015 fewer people were apprehended by the U.S. Border 
Patrol than overstayed their visas and are suspected of still 
being in the country, making the estimate closer to 68 percent 
of those illegally in the United States.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. McSally. We have a graphic up there, a little bit of 
math to--where did it go? It was up there--to show what we are 
talking about here. If you think about, again, we have a 54 
percent effective rate, you have got to do a little math--for 
those who are apprehended, therefore those we think were got-
aways. Then if you look at that, so that is 223,000 got-aways, 
but visa overstays in 2015: 482,000.
    So the unlawful presence is up to 705,000 just based on 
these 2 numbers. So that actually calculates a 68 percent 
unlawful presence rate that are visa overstays versus coming 
over the border. Again, these are estimates based on got-aways, 
so, you know, it is only as good as those assumptions.
    But still, the point is we spend a lot of time focusing on 
the Southern Border, as we should, but there is also another 
problem here. We have unlawful presence in our United States 
from the visa overstays, and that is what we are focusing on 
today.
    I am concerned that there are unidentified National 
security and public safety risks in a population that large, 
which has historically been the primary means for terrorist 
entry to the United States. In order to tackle the challenge, 
the Department has to first identify those who overstay their 
visa in the first place.
    A mandate to electronically track entries and exits from 
the country has been in place for more than 20 years, and a 
mandate for a biometrically-based entry-exit system has been a 
requirement for 12 years. Since 2003, we made substantial 
progress adding biometrics to the entry process, and we now 
take fingerprints and photographs of most visitors entering on 
a visa.
    But CBP has made, in fits and starts, only marginal 
progress when it comes to biometric exit. There have been a 
series of exit pilot projects at Nation's air, land, and sea 
ports over the last 10 years, but no plan has ever been 
implemented for a biometric exit capability. None of it was 
seriously considered by CBP and the Department.
    CBP is now engaged in a series of operational experiments, 
such as the use of mobile devices with biometric readers 
designed to support a future biometric exit system. In fact, 
until very recently the political will to make biometric exit a 
priority was really missing from the Department and CBP. 
Thankfully, it appears the Department has finally turned this 
corner.
    Secretary Johnson has now committed to a 2018 rollout of an 
operational biometric exit system at the Nation's highest-
volume airports, an ambitious time line, but long overdue. 
Congress has recently provided a steady funding stream in the 
form of new fees that will enable CBP to make investments to 
bring this system on-line.
    Putting a biometric exit system in place, as the 9/11 
Commission noted: ``An essential investment in our National 
security,'' because without a viable biometric exit system, 
visa holders can overstay their visa and disappear into the 
United States, just as 4 of the 
9/11 hijackers were able to do.
    Once we identify overstays, especially those who present 
National security and public safety threats, we must dedicate 
resources necessary to properly remove those in the country 
illegally; otherwise we put our citizens at risk unnecessarily. 
Yet even as we dedicate scarce resources to pursue this small 
subset of overstays, up to 25 percent of this group was found 
to have already departed the United States after ICE special 
agents conducted full field investigations. We are spending too 
much time chasing our tails.
    Adding a reliable exit system will be an immediate force 
multiplier, allows our National security professionals to focus 
their efforts on preventing terrorist attacks. Doing so 
mitigates the chance that visitors can stay in the country 
beyond their period of admission and reduces the terrorist 
threat in the process.
    The American people need to know answers to these simple 
questions. How many more overstays are out there who pose a 
serious threat to the security of our homeland? Can 
Immigrations and Customs Enforcement quickly identify and 
remove these overstays to mitigate substantial National 
security risks?
    I look forward to receiving answers to these important 
questions and to discuss the witnesses' efforts to address the 
challenges of visa overstays.
    [The statement of Chairwoman McSally follows:]
                 Statement of Chairwoman Martha McSally
                             June 14, 2016
    Border security naturally evokes images of the hot Arizona desert, 
dusty border roads, agents in green, fencing and camera towers. But a 
broader view of border security recognizes that there is more than just 
security along the Southwest Border to consider.
    Time and time again, terrorists have exploited the visa system by 
legally entering America. The 9/11 Commission put it this way: ``For 
terrorists, travel documents are as important as weapons.''
    The Commission's focus on travel documents is not surprising. Since 
the 1993 World Trade Center bombing, terrorists have abused the 
hospitality of the American people to conduct attacks here at home.
    Mahmud Abouhalima, an Egyptian convicted of the 1993 World Trade 
Center bombing, worked illegally in the United States as a cab driver 
after his tourist visa had expired.
    At least 4 of the 9/11 hijackers overstayed their visas, or were 
out of status--a missed opportunity to disrupt the attacks that killed 
nearly 3,000 of our fellow Americans.
    And among the most important weaknesses the attackers exploited was 
the porous ``outer ring of border security.'' The hijackers passed 
through U.S. border security a combined total of 68 times without 
arousing suspicion.
    More recently, Amine el-Khalifi attempted to conduct a suicide 
attack on the U.S. Capitol in 2012. He had been in the country since 
1999 on a tourist visa, but never left.
    Another man, arrested in the aftermath of Boston Marathon bombing 
who helped destroy evidence, was able to return to the United States 
despite being out of status on his student visa.
    Clearly, visa security is an important element of keeping the 
homeland secure.
    To put the National security risks in perspective, a widely-cited 
2006 Pew Hispanic Center Study, indicated as many as 40% of all illegal 
aliens who come into our country do not cross the desert in Arizona, 
but come in through the ``front door'' at our land, sea, and air ports 
of entry, with permission, and then overstay their welcome.
    Earlier this year, the Department of Homeland Security released a 
visa overstay report demonstrating the visa overstay problem may be 
much worse than previously thought. In fiscal year 2015, fewer people 
were apprehended by the U.S. Border Patrol, than overstayed their visas 
and are suspected of still being in the country, making the estimate 
closer to 60% of those illegally in the United States.
    I am concerned that there are unidentified National security and 
public safety risks in a population that large, which has historically 
been the primary means for terrorist entry into the United States.
    In order to tackle the challenge, the Department has to first 
identify those who overstay their visa in the first place. A mandate to 
electronically track entries and exits from the country has been in 
place for more than 20 years, and a mandate for a biometrically-based 
entry-exit system has been a requirement for 12 years.
    Since 2003, we made substantial progress adding biometrics to the 
entry process and we now take fingerprints and photographs of most 
visitors entering on a visa.
    But CBP has made, in fits and starts, only marginal progress when 
it comes to biometric exit. There have been a series of exit pilot 
projects at the Nation's air, land, and sea ports over the last 10 
years, but no plan to ever implement a biometric exit capability was 
seriously considered by CBP and the Department.
    CBP is now engaged in a series of operational experiments, such as 
the use of mobile devices with biometric readers, designed to support a 
future biometric exit system. In fact, until very recently, the 
political will to make biometric exit a priority was missing from 
Department and CBP leadership. Thankfully, it appears that the 
Department has finally turned a corner.
    Secretary Johnson has now committed to a 2018 roll-out of an 
operational biometric exit system at the Nation's highest volume 
airports--an ambitious time line, but long overdue. And Congress has 
recently provided a steady funding stream, in the form of new fees that 
will enable CBP to make investments to bring the system on-line.
    Putting a biometric exit system in place is, as the 9/11 Commission 
noted, ``an essential investment in our National security,'' because 
without a viable biometric exit system, visa holders can overstay their 
visa, and disappear into the United States; just as 4 of the 9/11 
hijackers were able to do.
    And once we identify overstays, especially those who present 
National security and public safety threats, we must dedicate the 
resources necessary to promptly remove those in the country illegally--
otherwise we put our citizens at risk unnecessarily.
    Yet, even as we dedicate scarce resources to pursue this small sub-
set of overstays, up to 25% of this group was found to have already 
departed the United States after ICE Special Agents conducted full 
field investigations. We are spending too much time chasing our tails.
    Adding a reliable exit system will be an immediate force multiplier 
that allows National security professionals to focus their efforts on 
preventing terrorist attacks. Doing so mitigates the chance that 
visitors can stay in the country beyond their period of admission--and 
reduces the terrorist threat in the process.
    The American people need to know answers to these simple questions:
  <bullet> How many more overstays are out there who pose a serious 
        threat to the security of the homeland?
  <bullet> Can Immigration and Customs Enforcement quickly identify and 
        remove visa overstays to mitigate the substantial National 
        security risks?
    I look forward receiving answers to these important questions, and 
to discuss their efforts to address of the challenge of visa overstays.

    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for an 
opening statement.
    Mr. Vela. I thank Chairman McSally for holding today's 
hearing on the National security risks posed by visa overstays.
    Before we begin, I want to express my sympathies to the 
families of those lost in the attack in Orlando this weekend, 
and my prayers are with those injured in the tragedy.
    I expect to learn more about the National security 
implications of this attack at a House-wide briefing with 
Secretary Jeh Johnson later today, but hope that the witnesses 
before us can touch briefly on the role of the Department and 
its components related to this terrible incident.
    With respect to the topic before the subcommittee today, I 
am pleased we are addressing the overstay issue. While Congress 
has in recent years paid a great deal of attention to securing 
our Southern Border, and rightfully so, less attention has been 
focused on successfully addressing visa overstays. The 
approximately 527,000 individuals who overstayed in fiscal year 
2015 is a far greater number than the 331,000 individuals who 
were apprehended along the U.S.-Mexico border that year, 
illustrating the scope of the overstay problem.
    As a Member of Congress representing a district along our 
Southern Border, I understand the challenges related to 
deploying a biometric exit system at ports of entry. Our 
Nation's airports and seaports were not built for exit control, 
nor were our land borders, certainly.
    Overcoming these infrastructure and technology challenges 
is an integral part of DHS's task. I look forward to hearing 
from our witnesses about what progress CBP and DHS S&T have 
made toward addressing these challenges as well as what their 
plans are for fulfilling the Secretary's commitment to begin 
deploying biometric exit at airports by 2018.
    I hope to hear about how the Department plans to address 
biometric exit at our land borders, particularly with Mexico. 
Unlike Canada, Mexico currently does not have the entry 
infrastructure, technology, and processes necessary to share 
traveler information with the United States. Whatever the 
ultimate solution, DHS must ensure it does slow the legitimate 
travel and trade that is so important to communities like those 
I represent.
    I hope to hear from ICE about how it prioritizes 
individuals who have overstayed and may pose a National 
security or public safety threat. With limited resources, we 
must first address those who may do us harm. Deploying 
biometric exit at ports of entry and addressing overstays is no 
easy task but it is a necessary part of ensuring meaningful 
border security.
    I thank the witnesses for joining us today and yield back 
the balance of my time.
    Ms. McSally. The gentleman yields back.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    We are pleased to be joined by 4 distinguished witnesses to 
discuss this important topic today. Mr. John Wagner is the 
deputy assistant commissioner for CBP's Office of Field 
Operations. Mr. Wagner formerly served as executive director of 
admissibility and passenger programs, with responsibility for 
all traveler admissibility-related policies and programs, 
including the Trusted Traveler Program, the Electronic System 
for Travel Authorization, the Immigration Advisory Program, and 
the Fraudulent Document Analysis Unit.
    Mr. Craig Healy is the assistant director for National 
security and investigations at ICE's Homeland Security and 
Investigations Division. Mr. Healy began his career in public 
service with the United States Marine Corps and served as a 
U.S. Customs Officer before joining ICE. In 2003, Mr. Healy 
served with the first group of U.S. Federal special agents 
entering Iraq in support of Operation Iraqi Freedom. He has 
served at ICE Headquarters since 2010.
    Ms. Kelli Ann Burriesci is the deputy assistant secretary 
for screening coordination office at the Department of Homeland 
Security. In this role, Ms. Burriesci is responsible for 
developing and coordinating the Department's screening 
policies, including the Visa Waiver Program in the Real ID 
Program. Before joining DHS, Ms. Burriesci was working in the 
private sector focusing on identity management programs and 
Federal personnel identity verification credentials.
    Mr. Bob Burns is the deputy director for Homeland Security 
Advanced Research Projects Agency for DHS's Science and 
Technology Directorate. As deputy director, he manages the 
resources and technical direction of the APEX Technology Engine 
Program and guides business community outreach initiatives.
    Mr. Burns was previously the director for Air Entry-Exit 
Re-engineering Project from February 2013 until December 2014. 
He led S&T in a partnership with U.S. Customs and Border 
Protection to enhance both air entry and exit processes by 
developing and implementing technologies for use in exiting 
airport inspecting and examination operations for travelers 
entering the United States.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes Mr. Wagner for 5 minutes.

 STATEMENT OF JOHN WAGNER, DEPUTY ASSISTANT COMMISSIONER, U.S. 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Wagner. Morning.
    Chairwoman McSally, Ranking Member Vela, distinguished 
Members of the subcommittee, thank you for the opportunity to 
appear today to discuss Customs and Border Protection's 
progress in incorporating biometrics into our exit operations, 
especially as it pertains to identifying travelers who may have 
overstayed their authorized period of admission in the United 
States.
    Since assuming the responsibility for the DHS entry-exit 
policy in 2013, CBP has been actively moving forward on several 
initiatives I will discuss today.
    I would like to begin by briefly discussing how we collect 
current arrival and departure data from foreign visitors. In 
the air and sea environments, CBP requires that carriers 
provide manifests containing biographic information on all 
passengers, which we run against numerous law enforcement and 
intelligence databases and automated targeting systems to 
identify and, if necessary, address and potential risks as far 
advance of travel as possible.
    Now, when that traveler arrives in the United States they 
present their passport to the CBP Officer, who confirms the 
validity of the document, the accuracy of the carrier's 
manifest information, and for foreign nationals fingerprints 
are collected and a digital photograph is also collected.
    If the traveler has a visa we compare those fingerprints 
against what the State Department collected at the embassy to 
make sure it is the same person. If they are traveling under 
the Visa Waiver Program we collect a set of 10 fingerprints, 
and if we have seen them previously we compare them against the 
previous visit.
    The CPB Officer also reviews all the results of the pre-
arrival biographic and biometric vetting to ensure that there 
are no previous violations, active warrants, or any other risk 
factors that will determine whether we need a further 
inspection. Before admitting the person, we interview the 
traveler to determine the purpose and the intent of travel. We 
then stamp the passport and write the period of admission into 
the passport as well as record that in our automated system.
    Now, when that same person leaves the United States we 
again receive a biographic manifest information from the 
carrier and run this against the same law enforcement and 
intelligence databases. This allows us to create a departure 
record from the traveler once the airlines confirm that person 
has boarded the flight. It is through this exit process that 
CBP apprehended the Times Square bomber, Faisal Shahzad, who 
was attempting to depart JFK in 2010.
    In fact, last year CBP arrested 379 airport passengers with 
outstanding NCIC warrants as result of departure manifests 
provided by the carriers.
    Now, we use this arrival and departure information to 
generate overstay lists on a daily basis. It is important to 
point out that determining lawful status can be more 
complicated than simply matching entry and exit data. For 
example, a person may receive a 6-month admission period at a 
time of entry but then apply for and receive an extension, 
which is relevant to determining if that person is truly an 
overstay or not. Therefore, overstay lists need to be carefully 
correlated against other DHS systems and organizations.
    The overstay lists are run through our automated targeting 
system. We apply ICE-defined criteria and prioritize these 
records. That information is then provided to ICE for 
appropriate action.
    Now, the overstay report, along with the comprehensive 
entry-exit plan we provided to Congress in April, articulates 
the foundation for incorporating biometrics into the exit 
aspect of our system. The biographic information we are using 
today is actionable, but it can certainly be enhanced with the 
addition of a biometric upon departure in order to validate and 
confirm the information we are acting upon.
    Now, unlike past attempts to deploy a biometric exit 
system, the challenge that remains is not so much the 
technology as it is the infrastructure, as Mr. Vela pointed 
out. Our ports of entry were not designed to have departure-
control processing. Unlike for arrivals, there is no exclusive 
and designated space for departure controls. International 
departures share gates with domestic traffic.
    So where the biometric collection takes place is critical. 
Placing the technology too far in advance of the departure 
process, such as at a TSA checkpoint or the airline check-in 
counter, would not provide assurances that the person who 
provided the data actually boarded the plane and left. In this 
case, we would end up nearly defaulting to the biographic 
manifest data, which is exactly the same system that we have in 
place today.
    So in preparing for deploying biometric exit we have 
launched several pilots, which were mentioned earlier: Did the 
facial comparison at JFK and Dulles, and we did a pedestrian 
pilot at Otay Mesa in California, and we did the handheld pilot 
at 10 airports across the country.
    Now, starting yesterday we commenced a pilot in Atlanta, 
Georgia at the airport in testing the ability of our 
information systems to compare facial images of travelers 
departing the United States against previously provided images 
by those travelers. This is done in an automoted fashion 
without impacting airport operations.
    This is our logical next step in building on our previous 
pilots that focused on the collection in matching front-end 
efforts. This pilot is now integrating this data into our back-
end systems. It is not another layered-on process, and it is 
critical to getting the airlines' and airports' cooperation, as 
we can incorporate this into their existing business processes.
    The analysis of this test will provide the final set of 
specifications and requirements for the biometric exit 
procurement to be released in early 2017 to provide the best 
technologies that meet our mission needs for the biometric exit 
system.
    So as law enforcement professionals we see that biometric 
technology on departure has the potential to provide a critical 
layer of data verification and security to our existing 
biographic system. We will continue our close collaboration 
with the Department and ICE in the development and the 
implementation of the biometric exit concepts. We will continue 
to work closely with our private industry partners, including 
the airlines and airports who are essential to the successful 
deployment and development of these solutions.
    So thank you again for the opportunity to appear today, and 
I would be happy to answer any questions.
    [The joint prepared statement of Mr. Wagner, Mr. Healy, Ms. 
Burriesci, and Mr. Burns follows:]
  Joint Prepared Statement of John Wagner, Craig C. Healy, Kelli Ann 
                     Burriesci, and Robert P. Burns
                             June 14, 2016
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear today to 
discuss the progress the Department of Homeland Security (DHS) is 
making to incorporate biometrics into our comprehensive entry/exit 
system and to identify, report, and address overstays in support of our 
border security and immigration enforcement missions.
    As recently as 13 years ago, the process of matching entry and exit 
data was extremely difficult. DHS legacy agencies relied on a mostly 
paper-based system to track arrivals and departures to and from the 
United States. There was no biometric collection, beyond photographs, 
by the Department of State (DOS) for visa applicants, nor for 
individuals seeking admission to the United States. Until 2008, myriad 
documents were accepted at land borders as evidence of identity and 
citizenship for admission or entry, and passenger information was 
provided voluntarily by air carriers. There was very limited pre-
departure screening of passengers seeking to fly to the United States. 
Overall, these factors provided for only a limited ability to detect 
violations of immigration law based on overstaying a lawful admission 
period.
    Over the last decade, with the support of Congress and our 
interagency and international partners, DHS--particularly through the 
combined efforts of the Science and Technology Directorate (S&T), 
National Protection and Program Directorate's Office of Biometric 
Identity Management (OBIM), Office of Policy (PLCY), U.S. Customs and 
Border Protection (CBP), and U.S. Immigration and Customs Enforcement 
(ICE)--has significantly enhanced its capability to record arrivals and 
departures from the United States, detect overstays, and interdict 
threats. DHS has dramatically reduced the number of documents that can 
be used for entry to the United States, which in turn strengthened 
DHS's ability to quickly and accurately collect biographic information 
on all admissions to the United States and check that data against 
criminal and terrorist watch lists, and other Government sources, such 
as immigration databases. This advancement has been particularly 
significant at land borders through the implementation of the Western 
Hemisphere Travel Initiative. In the air and sea environments, 
individuals undergo rigorous vetting before boarding an air or sea 
carrier for travel to the United States. Since 9/11, agencies have 
improved information sharing regarding known or suspected terrorists, 
including creation of the consolidated Terrorist Watch List through the 
Terrorist Screening Database. We have also worked closely with our 
foreign partners to deepen bilateral and international information 
sharing to enhance the depth and quality of our information holdings.
    Presently, we collect biometrics for most nonimmigrant foreign 
nationals \1\ and check them against terrorist watch lists prior to the 
issuance of a visa or lawful entry to the United States. Furthermore, 
we have developed new capabilities and enhanced existing systems, such 
as the Automated Targeting System (ATS), to help identify possible 
terrorists and others who seek to travel to the United States to do 
harm.
---------------------------------------------------------------------------
    \1\ The following categories of aliens currently are expressly 
exempt from biometric requirements by DHS regulations: Aliens admitted 
on an A-1, A-2, C-3 (except for attendants, servants, or personal 
employees of accredited officials), G-1, G-2, G-3, G-4, NATO-1, NATO-2, 
NATO-3, NATO-4, NATO-5, or NATO-6 visa; Children under the age of 14; 
Persons over the age of 79; Taiwan officials admitted on an E-1 visa 
and members of their immediate families admitted on E-1 visas. 8 CFR 
235.1(f)(1)(iv); and certain Canadian citizens seeking admission as B 
nonimmigrants per 8 CFR 235.1(f)(1)(ii). In addition, the Secretary of 
State and Secretary of Homeland Security may jointly exempt classes of 
aliens from US-VISIT. The Secretaries of State and Homeland Security, 
as well as the Director of the Central Intelligence Agency, also may 
exempt any individual from US-VISIT. 8 CFR 235.1(f)(1)(iv)(B).
---------------------------------------------------------------------------
    Today, DHS manages an entry/exit system in the air and sea 
environments that incorporates both biometric and biographic 
components. Applying a risk-based approach, the Department is now able, 
on a daily basis, to identify and target for enforcement action those 
individuals who represent a public safety and/or National security 
threat among visitors who have overstayed the validity period of their 
admission. Moreover, with the recent support of Congress in the 
Consolidated Appropriations Act, 2016, (Pub. L. No. 114-113), and as 
described in the Comprehensive Biometric Entry/Exit Plan provided to 
Congress in April 2016, DHS is continuing to move forward in further 
developing a biometric exit system that can be integrated in the 
current architecture to enhance this capability.
    In the past 4 years, substantial improvements to DHS travel and 
immigration data systems, coupled with targeted immigration enforcement 
efforts, have strengthened the security of our borders and enhanced our 
ability to identify, prioritize, and address foreign nationals who 
overstay their lawful period of admission. As a result of these 
improvements, DHS was able for the first time to publish the Entry/Exit 
Overstay Report, for fiscal year 2015, on January 19, 2016. We expect 
to expand this report in future years as data and analytic capabilities 
continue to improve. Enhanced data analysis and reporting capabilities, 
in conjunction with biographic overstay data from CBP, enables ICE to 
identify and initiate enforcement actions on overstay violators using a 
prioritization framework focused on individuals who may pose National 
security or public safety concerns. Both ICE and CBP are taking steps 
to further enhance visa overstay enforcement efforts.
              existing dhs entry and exit data collection
    A biographic-based entry/exit system is one that matches the 
personally identifying information on an individual's passport or other 
travel document presented when he or she arrives to and departs from 
the United States. The biographic data contained in the traveler's 
passport includes name, date of birth, document information, and 
country of citizenship. By comparison, a biometric entry/exit system 
matches a biometric attribute unique to an individual (i.e., 
fingerprints, a facial image, or iris image).
How DHS Collects Arrival Information
    For instances in which an individual requires a visa to enter the 
United States, biometric and biographic information is captured at the 
time his or her visa application is filed with DOS, along with 
supporting information developed during an interview with a consular 
officer. For certain visa categories, the individual will have already 
provided biographic information via a petition filed with U.S. 
Citizenship and Immigration Services (USCIS) as well. For individuals 
seeking to travel to the United States under the Visa Waiver Program 
(VWP), biographic information is captured from an intending traveler 
when they apply for an Electronic System for Travel Authorization 
(ESTA).\2\ If the individual is authorized for travel with an ESTA 
following the required security checks, an individual is able to travel 
to the United States under the VWP. Biometric information will be 
captured at the U.S. port of entry (POE), where the traveler will also 
be interviewed by a CBP Officer.
---------------------------------------------------------------------------
    \2\ ESTA collects biographic data and screens passengers against 
various law enforcement and intelligence databases. ESTA has digitized 
the Form I-94 (Arrival/Departure Record) for authorized travelers from 
participating VWP countries.
---------------------------------------------------------------------------
    In the air and sea environment, DHS receives passenger manifests 
submitted by commercial and private aircraft operators and commercial 
sea carriers, which include every individual who actually boarded the 
plane or ship bound for the United States. This information is 
collected in DHS's Advance Passenger Information System (APIS) and all 
non-U.S. citizen data is then sent to the Arrival and Departure 
Information System (ADIS), where it is stored for matching against 
departure records.
    As part of CBP's pre-departure strategy, and throughout the 
international travel cycle, CBP's National Targeting Center (NTC) 
continuously vets and analyzes passenger information, including visas 
and VWP ESTA authorizations. In addition to vetting achieved through 
DOS's visa application and adjudication processes, the NTC conducts 
continuous vetting of nonimmigrant U.S. visas and ESTA authorizations 
that have been issued, revoked, and/or denied. This continuous vetting 
ensures new information that impacts a traveler's admissibility is 
identified in near-real-time, allowing CBP to immediately determine 
whether to provide a ``no board'' recommendation to a carrier, 
recommend that DOS revoke the visa, revoke the ESTA authorization, or, 
for persons already within the United States, notify law enforcement 
agencies or other appropriate entities. CBP devotes its resources to 
identifying the highest threats, including those travelers who may not 
have been previously identified by law enforcement or the intelligence 
community due to the newness of the derogatory information.
    When a nonimmigrant arrives at a U.S. POE and applies for admission 
to the United States, a CBP Officer interviews the traveler regarding 
the purpose and intent of travel, reviews his or her documentation, and 
runs law enforcement checks. If applicable,\3\ CBP collects and matches 
biometrics against previously collected data and stores this data 
within OBIM's Automated Biometric Information System (IDENT). If 
admission is granted, the CBP Officer will stamp the traveler's 
passport with a date indicating the traveler's authorized period of 
admission. Based on electronic information already in DHS's systems, 
CBP electronically generates a Form I-94, Arrival/Departure Record that 
the traveler can print remotely to provide evidence of legal entry or 
status in the United States. The form also indicates how long the 
individual is authorized to stay in the United States.
---------------------------------------------------------------------------
    \3\ See Footnote 1.
---------------------------------------------------------------------------
How DHS Collects Departure Information
    The United States has a fully functioning biographic exit system in 
the air and sea environments. Similar to the entry process, DHS also 
collects APIS passenger manifests submitted by commercial and private 
aircraft operators and commercial sea carriers departing the United 
States. Carriers and operators are required to report biographic and 
travel document information to DHS for those individuals who are 
physically present on the aircraft or sea vessel at the time of 
departure from the United States and not simply for those who have made 
a reservation or are scheduled to be on board. Since 2005, collection 
of this information has been mandatory, and compliance by carriers is 
near 100 percent. DHS monitors APIS transmissions to ensure compliance 
and, if needed, issues fines for noncompliance on a monthly basis. CBP 
transfers this data (excluding data for U.S. citizens) to ADIS, which 
matches arrival and departure records to and from the United States.\4\
---------------------------------------------------------------------------
    \4\ DHS uses this information for a variety of immigration and law 
enforcement reasons, including to determine which travelers have 
potentially stayed past their authorized period of admission (i.e., 
overstayed) in the United States.
---------------------------------------------------------------------------
    At the Northern land border, as part of the Beyond the Border 
Action Plan,\5\ the United States and Canada are implementing a 
biographic exchange of traveler records that constitutes a partial land 
border exit system on our shared border. Today, traveler records for 
all lawful permanent residents and non-citizens of the United States 
and Canada who enter either country through land POEs on the Northern 
Border are exchanged in such a manner that land entries into one 
country serve as exit records from the other. The current match rate of 
Canadian records for travelers leaving the United States for Canada 
against U.S. entry records for nonimmigrants is over 98 percent. In 
April 2016, Canada reaffirmed its commitment to the United States to 
complete the program to include all travelers who cross the Northern 
Border. Canada will need to complete passage of additional legislation 
to facilitate this, which is expected to happen in late 2016.
---------------------------------------------------------------------------
    \5\ United States-Canada Beyond the Border: A Shared Vision for 
Perimeter Security and Economic Competitiveness, Action Plan, Dec. 
2011. Accessible at http://www.whitehouse.gov/sites/default/files/us-
canada_btb_action_plan3.pdf.
---------------------------------------------------------------------------
    Although the Southwest land border does not currently have the same 
capabilities and infrastructure as the Northern Border, DHS obtains 
exit data along the Southwest Border through ``pulse and surge'' 
operations,\6\ which provide some outbound departure information on 
some travelers departing the United States and entering Mexico. The 
Department is seeking to work with Mexico to develop the best methods 
of obtaining data from travelers departing the United States through 
the Southwest land border.
---------------------------------------------------------------------------
    \6\ ``Pulse and Surge'' operations are strategies whereby CBP 
Officers and agents monitor outbound traffic on the U.S.-Mexico border.
---------------------------------------------------------------------------
                          addressing overstays
    This integrated approach to collecting entry and exit data supports 
the Nation's ability to identify and address overstays. CBP identifies 
two types of overstays--those individuals who appear to have remained 
in the United States beyond their period of admission (Suspected In-
Country Overstay), and those individuals whose departure was recorded 
after their lawful admission period expired (Out-of-Country Overstay). 
The overstay identification process is conducted by consolidating 
arrival, departure, and immigration status adjustment information to 
generate a complete picture of individuals traveling to the United 
States. This process extends beyond our physical borders to include a 
number of steps that may occur well before a visitor enters the United 
States through a land, air, or sea POE and up to the point at which 
that same visitor departs the United States.
    CBP's ADIS identifies and transmits potential overstays to CBP's 
Automated Targeting System (ATS) on a daily basis, which screens them 
against derogatory information, prioritizes them, and sends them to 
ICE's lead management system, LeadTrac,\7\ which retains them for 
review and vetting by analysts.
---------------------------------------------------------------------------
    \7\ LeadTrac is an ICE system designed to receive overstay leads to 
compare against other DHS systems and Classified datasets to uncover 
potential National security or public safety concerns for referral to 
ICE field offices for investigation. The system employs a case 
management tracking mechanism to assist with analysis, quality control 
reviews, lead status, and field tracking.
---------------------------------------------------------------------------
    Through specific intelligence and the use of sophisticated data 
systems, ICE identifies and tracks available information on millions of 
international students, tourists, and other nonimmigrant visa holders 
who are present in the United States at any given time. Visa overstays 
and other forms of nonimmigrant status violations bring together two 
critical areas of ICE's mission-National security and immigration 
enforcement.
Enhancing Capabilities
    In the past 4 years, DHS has made substantial improvements to 
enhance our ability to identify, prioritize, and address confirmed 
overstays. DHS system enhancements that have strengthened our 
immigration enforcement efforts include:
  <bullet> Improved ADIS and ATS-Passenger (ATS-P) data flow and 
        processing quality and efficiency, increasing protection of 
        privacy through secure electronic data transfer.
  <bullet> Extended leverage of existing ATS-P matching algorithms, 
        improving the accuracy of the overstay list. Additional ADIS 
        matching improvements are underway to further improve match 
        confidence.
  <bullet> Developed an operational dashboard for ICE agents that 
        automatically updates and prioritizes overstay ``Hot 
        Lists,''\8\ increasing the efficiency of data flow between OBIM 
        \9\ and ICE.
---------------------------------------------------------------------------
    \8\ Hot lists are lists of individuals that are prioritized based 
on their level of risk.
    \9\ OBIM supports DHS components by providing storage and matching 
services using its IDENT system and returning any linked information 
when a match is made already encountered by DHS to identify known or 
suspected terrorists, National security threats, criminals, and those 
who have previously violated U.S. immigration laws.
---------------------------------------------------------------------------
  <bullet> Implemented an ADIS-to-IDENT interface reducing the number 
        of records on the overstay list by providing additional and 
        better quality data to ADIS, closing information gaps between 
        the 2 systems.
  <bullet> Improved ability of ADIS to match U.S. Citizenship and 
        Immigration Services' (USCIS) Computer-Linked Adjudication 
        Information Management System (CLAIMS 3) data for aliens who 
        have extended or changed their status lawfully, and therefore 
        have not overstayed even though their initial period of 
        authorized admission has expired.
  <bullet> Created a Unified Overstay Case Management process 
        establishing a data exchange interface between ADIS, ATS-P, and 
        ICE's LeadTrac system, creating one analyst platform for DHS.
  <bullet> Enhanced ADIS and Transportation Security Administration 
        (TSA) Alien Flight Student Program (AFSP) data exchange to 
        increase identification, efficiency, and prioritization of TSA 
        AFSP overstays within the ADIS overstay population.
  <bullet> Enhanced Overstay Hot List, consolidating immigration data 
        from multiple systems to enable ICE employees to more quickly 
        and easily identify current and relevant information related to 
        the overstay subject.
  <bullet> Established User-Defined Rules enabling ICE agents to create 
        new or update existing rule sets within ATS-P as threats 
        evolve, so that overstays are prioritized for review and action 
        based on the most up-to-date threat criteria.
    These measures and system enhancements have proven to be valuable 
in identifying and addressing overstays. The DHS steps described above 
have strengthened data requirements through computer enhancements, 
identified National security overstays through increased collaboration 
with the intelligence community, and automated manual efforts through 
additional data exchange interfaces. DHS is continuing this progress in 
fiscal year 2016.
Reporting Overstay Data
    On January 19, 2016, DHS released the first Entry/Exit Overstay 
Report. This report represents a culmination of the aforementioned 
efforts to enhance data collection and address issues precluding 
production of the report in prior years. The Entry/Exit Overstay Report 
for Fiscal Year 2015 provides data on departures and overstays, by 
country, for foreign visitors to the United States who were lawfully 
admitted for business (i.e., B-1 and WB classifications) or pleasure 
(i.e., B2 and WT classifications) through air or sea POEs, and who were 
expected to depart in fiscal year 2015--a population which represents 
the vast majority of annual nonimmigrant admissions. In fiscal year 
2015, of these nearly 45 million nonimmigrant visitors, DHS calculated 
a total overstay rate of 1.17 percent, or 527,127 individuals. In other 
words, 98.83 percent of visitors had left the United States on time and 
abided by the terms of their admission.
    The report breaks the overstay rates down further to provide a 
better picture of those overstays, for whom there is no evidence of a 
departure or transition to another immigration status. At the end of 
fiscal year 2015, there were 482,781 Suspected In-Country Overstays, 
resulting in a Suspected In-Country Overstay rate of 1.07 percent.
    Due to continuing departures by individuals in this population, by 
January 4, 2016, and described in the report, the number of Suspected 
In-Country Overstays for fiscal year 2015 had dropped to 416,500, 
reducing the Suspected In-Country Overstay rate to 0.9 percent. In 
other words, as of January 4, 2016, DHS had been able to confirm the 
departures of more than 99 percent of nonimmigrant visitors scheduled 
to depart in fiscal year 2015 via air and sea POEs, and that number 
continues to grow. Indeed, as of June 6, 2016, the number of Suspected 
In-Country Overstays for fiscal year 2015 has further dropped to 
355,338, further reducing the Suspected In-Country Overstay rate to 
0.79 percent.
    For Canada and Mexico, the fiscal year 2015 Suspected In-Country 
Overstay rate as of the end of the fiscal year was 1.18 percent of the 
7,875,054 expected departures and 1.45 percent of the 2,896,130 
expected departures respectively. Consistent with the methodology for 
other countries, this represents only travel through air and sea ports 
of entry and does not include data on land border crossings.
    This report also separates VWP country overstay numbers from non-
VWP country numbers. For VWP countries, the fiscal year 2015 Suspected 
In-Country Overstay rate as of the end of the fiscal year was 0.65 
percent of the 20,974,390 expected departures. For non-VWP countries, 
the fiscal year 2015 Suspected In-Country Overstay rate at the end of 
the fiscal year was 1.60 percent of the 13,182,807 expected departures. 
DHS is in the process of evaluating whether and to what extent the data 
presented in this report will be used to make decisions on the VWP 
country designations.
    As noted above, these fiscal year 2015 In-Country Overstay rates 
continue to decline due to continuing departures by individuals in 
these populations.
    In partnership with other DHS components, CBP is continuing to 
improve ADIS so that additional overstay information can be included in 
future reports, including additional visa categories such as the 
foreign student and exchange visitor population (F, M, and J 
nonimmigrant admission classes) and other nonimmigrant admission 
classes (such as H, O, P, Q nonimmigrant admission classes), and 
certain land-related overstay populations as determined by our data 
exchange with Canada.
Overstay Enforcement in the United States
    ICE actively identifies and initiates enforcement action on 
overstay violators using a prioritization framework focused on 
individuals who may pose National security or public safety concerns, 
and consistent with the Department of Homeland Security's November 2014 
Civil Enforcement Priorities. ICE's overstay mission is accomplished in 
close coordination with CBP, and both agencies are taking steps to 
further enhance the visa overstay enforcement efforts described below.
    ICE's primary objective is to vet system-generated leads in order 
to identify true overstay violators, match any criminal conviction 
history or other priority basis, and take appropriate enforcement 
actions. Within ICE, Homeland Security Investigations (HSI) has 
dedicated special agents, analysts, and systems in place to address 
nonimmigrant overstays. Through investigative efforts, HSI is 
responsible for analyzing and determining which overstay leads may be 
suitable for further National security and public safety 
investigations.
    ICE analyzes system-generated leads initially created by, or 
matched against the data feed for biographic entry and exit records 
stored in CBP's ADIS. ADIS supports the Department's ability to 
identify nonimmigrants who have remained in the United States beyond 
their authorized periods of admission or have violated the terms and 
conditions of their visas. Once the leads are received, ICE conducts 
both batch and manual vetting against Government databases, social 
media, and public indices. This vetting helps determine if an 
individual who overstayed has departed the United States, changed 
status or extended a period of stay in the same status, or would be 
appropriate for an enforcement action.
    As part of a tiered review, HSI prioritizes nonimmigrant overstay 
cases through risk-based analysis. HSI's Counterterrorism and Criminal 
Exploitation Unit (CTCEU) oversees the National program dedicated to 
the investigation of nonimmigrant visa violators who may pose a 
National security risk. Each year, the CTCEU analyzes records of 
hundreds of thousands of potential status violators after preliminary 
analysis of data from the Student and Exchange Visitor Information 
System (SEVIS) and ADIS, along with other information. After this 
analysis, CTCEU establishes compliance or departure dates from the 
United States and/or determines potential violations that warrant field 
investigations.
    The CTCEU proactively develops cases for investigation in 
furtherance of the overstay mission and monitors the latest threat 
reports and proactively addresses emergent issues. This practice, which 
is designed to detect and identify individuals exhibiting specific risk 
factors based on intelligence reporting, travel patterns, and in-depth 
criminal research and analysis, has contributed to DHS's 
counterterrorism mission by initiating and supporting high-priority 
National security initiatives based on specific intelligence.
    In order to ensure that those who may pose the greatest threats to 
National security are given top priority, ICE uses intelligence-based 
criteria developed in close consultation with the intelligence and law 
enforcement communities. ICE chairs the Compliance Enforcement Advisory 
Panel (CEAP), comprising subject-matter experts from other law 
enforcement agencies and members of the intelligence community who 
assist the CTCEU in maintaining targeting methods in line with the most 
current threat information. The CEAP is convened on a quarterly basis 
to discuss recent intelligence developments and update the CTCEU's 
targeting framework in order to ensure that the nonimmigrant overstays 
and status violators who pose the greatest threats to National security 
are targeted.
    Another source for overstay and status violation referrals is 
CTCEU's Visa Waiver Enforcement Program (VWEP). Visa-free travel to the 
United States, especially through the VWP, builds upon our close 
bilateral relationships and fosters commercial and individual ties 
among tourist and business travelers in the United States and abroad. 
VWP participants, the primary source of nonimmigrant visitors from 
countries other than Canada and Mexico, currently allows eligible 
nationals of 38 countries to travel to the United States without a visa 
and, if admitted, to remain in the country for a maximum period of 90 
days for tourism or business purposes. Prior to the implementation of 
the VWEP in 2008, there was no National program dedicated to addressing 
overstays within this population. Today, CTCEU regularly scrutinizes a 
refined list of individuals who have been identified as potential 
overstays who entered the United States under the VWP. A primary goal 
of this program is to identify those subjects who attempt to circumvent 
the U.S. immigration system by seeking to exploit VWP travel.
Enforcement Prioritization
    Every year, the CTCEU receives approximately 1 million leads on 
nonimmigrants that have potentially violated the terms of their 
admission, such as overstays and out-of-status non-immigrant students 
or exchange visitors. Over half of these leads are closed due to the 
vetting conducted by CTCEU analysts, which eliminates false matches and 
accounts for departures and pending immigration benefits. As noted 
above, to better manage investigative resources, the CTCEU relies on a 
prioritization framework established in consultation with interagency 
partners within the National intelligence and Federal law enforcement 
communities through CEAP. The CTCEU has also aligned its policy on 
sending leads to the field with the DHS's civil enforcement priorities, 
which focus enforcement and removal policies on individuals convicted 
of significant criminal offenses or who otherwise pose a threat to 
public safety, border security, or National security.
    The CTCEU's prioritization framework is divided into 10 CTCEU 
priority levels to identify possible immigration violators who pose the 
greatest risks to our National security. The CTCEU Priority Level 1 is 
based on special projects and initiatives to address National security 
concerns, public safety, and apply certain targeting rules. These 
projects and initiatives include: The Recurrent Student Vetting 
Program; DHS's Overstay Projects; Absent Without Leave (AWOL) Program; 
INTERPOL Leads; and individuals who have been watchlisted.
    In fiscal year 2015, CTCEU reviewed 971,305 compliance leads. 
Numerous leads that were referred to CTCEU were closed through an 
automated vetting process. The most common reasons for closure were 
subsequent departure from the United States or pending immigration 
benefits. A total of 9,968 leads were sent to HSI field offices for 
investigation--an average of 40 leads per working day. From the 9,968 
leads sent to the field, 3,083 have been determined to be viable and 
are currently under investigation, 4,148 were closed as being in 
compliance (pending immigration benefit, granted asylum, approved 
adjustment of status application, or have departed the United States) 
and the remaining leads were returned to CTCEU for continuous 
monitoring and further investigation as appropriate. HSI Special Agents 
made 1,910 arrests, and secured 86 indictments and 80 convictions in 
fiscal year 2015 from overstay leads.
    ICE is taking steps to further enhance enforcement efforts with 
respect to non-immigrant visa overstays and violators, in conjunction 
with CBP.
       enhancing the department's comprehensive entry/exit system
    Since fiscal year 2013, CBP has led the entry/exit mission, 
including research and development of biometric exit programs. A 
comprehensive entry/exit system that leverages both biographic and 
biometric data is key to supporting DHS's mission. As previously 
described. Biographic information is, and will continue to be, the 
foundation of our comprehensive entry/exit system, because it 
constitutes the vast majority of our intelligence, law enforcement, and 
background information that informs CBP decisions regarding the 
admission of individuals into our country. CBP will continue to further 
these biographic capabilities, while also redoubling efforts to 
incorporate biometrics into the exit aspect of our system and to 
develop and deploy a biometric entry/exit system, as mandated by 
statute. CBP's plan for expanding implementation of a biometric entry/
exit system, based on technological and operational lessons derived 
from past, on-going, and planned pilots, and utilizing currently 
authorized funding, is described in the Comprehensive Biometric Entry/
Exit Plan provided to Congress in April 2016. This plan includes 
Secretary Johnson's direction to begin implementing biometric exit 
solutions, starting at the highest volume airports, in 2018.
    DHS continues to strengthen systems and processes in order to 
improve the accuracy of data provided to ADIS. These improvements will 
enable ADIS to more accurately match entry and exit records to 
determine overstay status, and whether that individual presents a 
National security or public safety concern. Data that is entered into 
ADIS comes from a variety of sources in the Department including USCIS, 
CBP, and ICE. Additionally, DHS has identified mechanisms to ensure ICE 
investigators receive priority high-risk overstay cases for resolution 
in a timely fashion and to ensure other ADIS stakeholders (such as CBP, 
USCIS, and DOS) receive the best possible information with which to 
make immigration decisions. Furthermore, the Department of Homeland 
Security Appropriations Act, 2015 (Pub. L. No. 114-4) provided $9 
million for a new reporting environment for ADIS, enhancing DHS's 
ability to record and analyze the entry/exit data.
Incorporating Biometrics into the Exit System
    In pursuing a biometric exit system, DHS is cognizant of 
limitations posed by existing infrastructure. The United States did not 
build its land border, aviation, and immigration infrastructure with 
exit processing in mind. In the land environment, there are often 
geographical features that prevent expansion of exit lanes to 
accommodate adding lanes or CBP-manned booths. Furthermore, U.S. 
airports do not have designated and secure exit areas for out-going 
passengers to wait prior to departure, nor do they have specific 
checkpoints for these passengers to go through where their departure is 
recorded by an immigration officer. Instead, foreign nationals depart 
the United States without Government exit immigration inspection and 
intermingle with domestic travelers. This challenge is further 
compounded at many airports where international and domestic flights 
share gate space for operations. Ultimately, CBP must develop a 
solution for this environment that ensures a passenger ticketed for a 
particular flight actually departed the United States in order for a 
biometric exit program to be credible and effective. Additionally, this 
solution must address airline carriers' and airports' concerns that a 
biometric exit process not create an environment in which an airport 
cannot afford to support an international flight because that space is 
so highly restricted.
    Currently, Federal law requires airports serving flights with 
arriving foreign nationals to provide space, at no cost, to DHS for 
processing of travelers entering the United States; however, there is 
no corresponding provision that requires airports to provide space for 
processing of departing foreign nationals.
    In meeting these challenges, CBP has concluded that a viable 
biometric exit solution depends on leveraging emerging technologies to 
innovate ways of processing passengers biometrically. In reaching this 
conclusion, CBP considered and rejected broad non-cost effective 
options involving recapitalizing the infrastructure at land borders and 
airports, or the hiring of additional officers to manually verify all 
departing travelers. Recapitalization of all U.S. international 
airports and land borders would allow CBP to establish sterile physical 
areas, which, once entered, a foreign national cannot leave without 
inspection by an immigration officer. This recapitalization would 
require significant limitations in the number of gates that airlines 
could use for international departures, and result in overall direct 
and indirect costs of billions of dollars. CBP does not consider this 
option viable.
    Alternatively, CBP could pursue a solution within the constraints 
of existing infrastructure through the hiring of thousands of new 
officers that would be necessary to biometrically verify departing 
passengers. There are currently thousands of international departure 
gates at the top 30 airports in the United States, which handle over 97 
percent of the departing international passengers. Based on current and 
previous pilot programs, CBP estimates that it would need 7-9 officers 
to collect biometrics on departing foreign visitors for a large 
aircraft, which accounts for many international departing flights. CBP 
estimates that in order to inspect 95 percent of all ``in-scope'' 
travelers departing by air, a manual solution at the top 30 airports 
would require approximately 3,400 more officers at an average annual 
cost of $790 million, independent of any other costs, including 
considerable infrastructure costs, and cause significant delays.
    For the land environment, such an approach to biometric exit would 
require building and staffing of hundreds of outbound lanes at land 
ports of entry, many of them operational 24 hours a day. It is 
estimated that the land solution would require CBP to dramatically 
increase the current Office of Field Operations workforce and budget, 
and those costs would recur annually.
    Instead, DHS believes the most efficient and cost-effective 
solution to a viable biometric exit program is to leverage emerging 
technology, in addition to process transformation. CBP is collaborating 
with S&T and is also partnering with private industry to develop the 
tools needed. CBP has already deployed several pilot programs in order 
to operationally test different technologies and operational processes, 
provide input to the cost-benefit analysis of a comprehensive biometric 
exit solution, and to inform decisions regarding the next steps in 
deploying a biometric exit program. These include:
  <bullet> 1-to-1 Facial Comparison Project.--From March to June 2015, 
        CBP conducted a 1-to-1 Facial Comparison project. This 
        biometric experiment at Washington Dulles Airport (Dulles) used 
        facial comparison on some returning U.S. citizens to confirm 
        the identity and determine the viability of using facial 
        recognition technology during entry inspections. Facial images 
        of arriving travelers were compared to images stored in the 
        U.S. ePassport chips. This project tested the viability of the 
        technology in matching a traveler to their travel document and 
        assessed the extent to which it may further strengthen our 
        entry screening abilities. The success of this program led to 
        deploying the project at JFK airport in New York in January and 
        back to Dulles in February 2016. Lessons learned from this 
        deployment are informing the use of facial biometric matching 
        during departure.
  <bullet> Biometric Exit Mobile Air Test (BE-Mobile).--Since July 
        2015, CBP has been experimenting with the collection of 
        biometric exit data using mobile fingerprint collection devices 
        on a random group of in-scope non-U.S. citizen travelers on 
        selected flights departing from 10 U.S. international airports. 
        BE-Mobile confirms traveler departures with certainty and 
        identifies threats in real time using biometric technology. 
        This test has provided a small amount of biometric departure 
        data, supported on-going auditing of biographic data provided 
        through airline manifests, and provided a significant law 
        enforcement benefit for existing outbound operations. The 
        technology is currently being used in the Top 10 airports: 
        Chicago/O'Hare, Atlanta/Hartsfield, New York/JFK, Newark, Los 
        Angeles/LAX, San Francisco, Miami, Dallas/Ft. Worth, 
        Washington/Dulles, and Houston/George Bush. While evaluating 
        the data collected, CBP will continue to operate BE-Mobile at 
        these airports and expand BE-Mobile to a number of small 
        airports to see if BE-Mobile can fully support the biometric 
        exit requirements of small ports.
  <bullet> Pedestrian Field Test.--From early December 2015 through 
        early May 2016, CBP deployed a Pedestrian Field Test at the 
        Otay Mesa POE in California, which involved the collection of 
        biographic and biometric data from pedestrian travelers 
        departing the United States. Biographic data was collected on 
        all outbound travelers, including U.S. citizens, and biometric 
        data (face and iris image capture) was collected on all inbound 
        and outbound non-exempt, non-U.S. citizens. The field test 
        explored the viability of this technology in an outdoor land 
        environment. While the evaluation of this test is on-going, 
        this initiative enhanced CBP's ability to identify departures 
        and successfully match biometric entry and exit records at the 
        land border for the first time.
  <bullet> Departure Information System Test.--Starting June 13, 2016, 
        CBP has begun to implement a test of how the integration of 
        data sources and re-architecture of information systems can 
        process new departure data at Hartsfield-Jackson Atlanta 
        International Airport. CBP is testing the ability of its 
        information systems to compare images of travelers departing 
        the United States in real time against images previously 
        provided to determine if they are in scope for biometric 
        collection in an automated fashion. This effort builds upon 
        previous CBP biometric efforts at Dulles International Airport 
        and John F. Kennedy International Airport and will advance the 
        innovation and transformation of the entry and exit process. 
        This test has been designed to conform with airlines' existing 
        standard operating procedures such that the incorporation of 
        biometrics is agnostic to current boarding processes and will 
        have minimal impact on airlines, airports, and the traveling 
        public.
    The results from these pilots will inform the future biometric exit 
solution by identifying how best to leverage our existing biographic 
capabilities, determining the overall accuracy of the biographic exit 
data that CBP receives today, and testing new business processes and 
emerging technologies. The Department and CBP will continue to apprise 
Congress of the results of these projects and their implication for the 
deployment of the biometric entry/exit system.
Fee Collections for Exit Activities
    In the Consolidated Appropriations Act, 2016 (Pub. L. No. 114-113), 
Congress provided CBP with a fee-funded account for biometric entry/
exit activities, which may collect up to $1 billion by fiscal year 
2025.
    CBP's plan for expanding implementation of a biometric entry/exit 
system, based on technological and operational lessons derived from 
past, on-going, and planned pilots, and utilizing these authorized 
funds, in described in the Comprehensive Biometric Entry/Exit Plan 
submitted to Congress in April. CBP is further developing its 
expenditure plan for these funds, which could cover the initial 
biometric air exit engineering efforts, biometric scanning technology, 
data system integration, infrastructure upgrades, and CBP officer 
support that would be necessary to deploy to the top gateway airports. 
CBP is also preparing an acquisition plan which will address how and 
when CBP will partner with private industry in order to achieve our 
goal of development of a biometric exit system. Of note, while the 
funds provided through the Consolidated Appropriations Act, 2016 will 
enable CBP to take the next major step in development of a biometric 
entry/exit system at the highest volume airports, full Nation-wide 
deployment of a comprehensive entry-exit system at system at all ports 
of entry will require additional resources not available from the 
authorized surcharges.
                               conclusion
    While implementation of a robust and efficient biometric exit 
solution will take time, and significant challenges remain, DHS is 
aggressively evaluating emerging biometric technologies in existing 
operational environments and redoubling efforts to incorporate 
biometric exit capabilities into our comprehensive entry/exit system. 
We are working closely with our domestic and international stakeholders 
to find solutions that protect the integrity of our visa system, 
minimize disruptions to travel, prove to be cost-effective, and provide 
sufficient flexibility to address both current and future requirements. 
Through these and related efforts, we will continue to build on the 
progress we have made in our ability to identify, report, and take 
appropriate action against those who overstay or violate the terms of 
their admission to the United States.
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for this opportunity to testify today on 
this important issue. We look forward to answering your questions.

    Ms. McSally. Thank you, Mr. Wagner.
    The Chairwoman now recognizes Mr. Healy.

 STATEMENT OF CRAIG C. HEALY, ASSISTANT DIRECTOR FOR NATIONAL 
     SECURITY INVESTIGATIONS, U.S. IMMIGRATION AND CUSTOMS 
       ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Healy. Good morning Chairwoman McSally, Ranking Member 
Vela, and distinguished Members. Thank you for the opportunity 
to discuss ICE's role in overstay enforcement and how we would 
benefit from the implementation of a biometric exit system.
    For nearly 30 years I have spent my career in Federal law 
enforcement, and I recognize that visa overstay enforcement is 
an important issue for this subcommittee. I would to briefly 
outline my agency's involvement as a recipient of information 
collected by my DHS colleagues represented here today and how 
we use that information.
    ICE Homeland Security Investigations, or HSI, through our 
Counterterrorism and Criminal Exploitation Unit, is dedicated 
to identifying and initiating enforcement action on priority 
overstay violators. Our overstay mission is accomplished in 
close coordination with CBP, and our primary objective is to 
vet the system-generated leads we receive in order to identify 
true overstay violators for appropriate enforcement action.
    ICE uses dedicated special agents, analysts, and systems to 
specifically address nonimmigrant overstays who may pose a 
National security and public safety concern. In fiscal year 
2015 our agents and analysts devoted approximately 650,000 
investigative hours on overstay enforcement. In fiscal year 
2015 the Counterterrorism and Criminal Exploitation Unit 
received approximately 971,000 system-generated potential 
overstay leads received from entry-exit international student 
databases and other Government systems.
    The system-generated leads are created using biographical 
and travel data stored in CBP's arrival and departure 
information system. This system allows DHS to identify 
nonimmigrants who have remained in the United States beyond 
their authorized periods of admission or have violated their 
visas.
    Once the leads are received, ICE conducts both automated 
and manual searches against additional Government databases, 
social media, public records to determine if a potential 
overstay has departed the United States, has adjusted to a 
lawful status, or requires further review, in which case a lead 
will be sent out to a field office.
    Additionally, ICE prioritizes nonimmigrant overstay leads 
through risk-based analysis. A targeting framework consisting 
of 10 tiers was developed in close consultation with the 
intelligence and law enforcement communities to ensure that our 
National security and public safety concerns are prioritized.
    To accomplish this, we meet regularly with interagency 
partners to ensure that our targeting methodologies are aligned 
with current and existing U.S. Government threat information, 
trends, and priorities.
    To better manage investigative resources, the 
Counterterrorism and Criminal Exploitation Unit not only relies 
on the previously-discussed prioritization framework, but also 
incorporates focused enforcement and removal operations on 
individuals who are threats to National security, border 
security, public safety, or who are convicted of significant 
criminal offenses.
    Of the leads analyzed in fiscal year 2015, approximately 1 
percent, or roughly 10,000 leads, were determined to 
potentially pose a National security or public safety concern. 
Fortunately, with further investigation ICE was able to 
determine that even many of these leads were not, in fact, 
high-risk. However, all of these leads were sent to HSI field 
offices for further-up investigation.
    Of the 10,000 field referrals or 10,000 investigations that 
were sent out to the field, our offices have approximately 
3,000 of those investigations that are still on-going, and 
roughly 4,000 of those investigations have been closed, because 
even after our initial vetting it was determined that those 
individuals were, in fact, in compliance.
    The remaining leads are in continuous monitoring for 
further investigation. More importantly, as a result of those 
10,000 investigations we made over 1,900 arrests, of which 139 
were criminal arrests, and secured 86 indictments and 80 
convictions.
    In conclusion, ICE will continue to work alongside our 
partners within DHS in pursuing visa overstays who violate the 
terms of their admission. The implementation of the biometric 
exit system will facilitate enhanced information sharing while 
improving the quality of the data, thereby improving our 
efficiency and effectiveness in identifying and removing visa 
overstay violators.
    Thank you again for the opportunity to be here today, and I 
look forward to taking your questions.
    Ms. McSally. Thank you, Mr. Healy.
    The Chairwoman now recognizes Ms. Burriesci for 5 minutes.

 STATEMENT OF KELLI ANN BURRIESCI, DEPUTY ASSISTANT SECRETARY, 
  SCREENING COORDINATION OFFICE, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Burriesci. Before I begin I would also like to express 
my sincere condolences for the people of Orlando who lost a 
family member or a friend this past weekend, and I appreciate 
the moment of silence earlier.
    Thank you, Chairman--Chairwoman McSally, Ranking Member 
Vela, and distinguished Members of the subcommittee, for the 
opportunity to appear here today to discuss DHS's progress to 
support border security and immigration enforcement missions.
    I am the deputy assistant secretary of the Screening 
Coordination Office, part of the DHS Office of Policy. The 
Screening Coordination Office is charged with developing cross-
departmental policy for the screening and vetting of people and 
with advising the assistant security of policy.
    The Screening Coordination Office also collaborates with 
its interagency partners to inform and develop screening 
policies that involve multiple departments. This whole-of-
Government approach to screening involves decisions about how 
we share information and interact with one another across the 
Government.
    I am here with my DHS colleagues today to discuss overstays 
and biometric exit.
    On January 19, 2016, DHS released the entry-exit overstay 
report for fiscal year 2015, the first such report in a 
generation. This report provides information on the number of 
individuals in this country who have overstayed their period of 
admission and is presented by country. The report covers 87 
percent of all nonimmigrant travelers coming to United States 
by air and sea. It reflects that 99 percent of these travelers, 
these nonimmigrant travelers, depart within their period of 
admission.
    At the time the report was issued, 416,000 of these 
individuals were suspected of remaining in the United States as 
an overstay. Since the report was issued, the number has 
dropped to below 355,000 individuals.
    While the report represents a tremendous step forward, DHS 
recognizes that it does not answer all of the questions. As you 
have heard DHS officials brief in the past, DHS has identified 
quality errors in historic data that, while now fixed, prevents 
us from being able to retroactively produce reports for prior 
fiscal years.
    That said, and for transparency, DHS provided fiscal year 
2014 numbers in the appendix of the fiscal year 2015 report. As 
the report states, the ability to accurately and reliably 
estimate overstay rates is dependent upon the completeness and 
accuracy of arrival and departure records.
    During the generation of the fiscal year 2014 overstay 
data, DHS identified significant discrepancies regarding the 
data received from certain air carriers, which resulted in 
artificially elevated overstay rates. These data quality issues 
have since been resolved for business and tourism travelers, 
and the fiscal year 2015 overstay report tables are an accurate 
depiction of country-by-country overstay numbers for these 
categories.
    Over the past 2 years DHS has made significant progress in 
terms of its ability to accurately report data on overstays, 
and we will continue to make progress. DHS anticipates that we 
will broaden the scope of data for future reports, with a 
particular emphasis on student visa categories.
    Relatedly, DHS recently submitted the comprehensive 
biometric entry-exit plan to Congress April 20, 2016. Over the 
last decade, with the support of Congress, DHS, through the 
combined efforts of DHS S&T, CBP, ICE, and NPPD's Office of 
Biometric Identity Management, has enhanced its capability to 
record arrivals and departures within the United States.
    CBP is the DHS-designated executive agent for 
operationalizing a comprehensive entry-exit system with 
biometrics, building off of our current biographic system that 
exists today.
    Secretary Johnson directed CBP to redouble its efforts to 
achieve a biometric entry-exit system and to begin implementing 
biometric exit starting at the highest-volume airports in 2018. 
While it will take time, effort, and innovation, DHS believes 
it has put forward a responsible and thoughtful approach to 
achieve a sustainable solution.
    This solution recognizes that one technology may not be 
suitable for each air, land, and sea environment and that one 
process may not be appropriate for all environments. Our 
overarching goal is a fully integrated, scalable, and 
sustainable entry-exit enterprise that includes biometrics.
    With the on-going support of Congress, most recently 
demonstrated in the Consolidated Appropriations Act of 2016, 
DHS will continue to advance a biometric exit system that can 
be integrated into the current traveler screening architecture. 
We thank you for the support and we will continue to provide 
updates on our progress to Congress well past this hearing. 
Thank you.
    Ms. McSally. Thank you, Ms. Burriesci.
    The Chairwoman now recognizes Mr. Burns for 5 minutes.

 STATEMENT OF ROBERT BURNS, DEPUTY DIRECTOR, HOMELAND SECURITY 
   ADVANCED RESEARCH PROJECTS AGENCY, SCIENCE AND TECHNOLOGY 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Burns. Good morning, Chairwoman McSally, Ranking Member 
Vela, and distinguished Members of the committee. Thank you for 
this opportunity to testify along with my colleagues today from 
the Office of Policy, Customs and Border Protection, and 
Immigration and Customs Enforcement, with whom we work closely.
    The mission of the Science and Technology Directorate, or 
S&T, is to deliver effective, innovative insight, methods, and 
solutions for the critical needs of the homeland security 
enterprise. We work closely with our operating components, such 
as ICE, CBP, and our oversight offices, including the Office of 
Policy, to address the gaps in operational capabilities and 
invest in efforts that will result in knowledge or products 
aimed at closing these gaps.
    In 2012 CBP asked for our assistance in their efforts to 
enhance air entry and air exit operations. In response, S&T 
created the Apex AEER Entry-Exit Re-Engineering Project, known 
as AEER, or AEER, which is composed of several vital parts: 
Technology forging and testing, operations and technology cost 
analysis, and stakeholder engagement.
    Apex projects are key S&T activities carried out in close 
collaboration with operational components to achieve increased 
or improved capabilities.
    With respect to air entry and exit, our goal has been to 
help CBP evaluate technologies and concepts of operations to 
biometrically verify the arrival and departure of foreign 
nationals from U.S. airports.
    To determine candidate technologies, AEER conducted a 
comprehensive market survey of commercially-available, 
standards-based fingerprint, iris, and facial recognition 
technologies. We work closely with biometric experts from the 
National Institutes for Standards and Technology to solicit 
their assistance and develop robust testing protocols and 
objectively analyze results.
    Additionally, we leveraged headquarters, interagency, and 
international expertise from the DHS Office of Biometric 
Identity Management, the Department of Defense, the Federal 
Bureau of Investigation, the Department of State, and foreign 
government partners.
    We identified over 100 devices and 15 matching algorithms 
from a wide range of vendors for testing in our Maryland test 
facility, which many Congressional staff members have visited 
over the past 2 years. We first evaluated these device 
performance on factors including accuracy, cost, speed, and 
operational footprint.
    Those that performed well were selected for scenario-based 
testing of their human interface and suitability in various 
concept of operations. Since June 2014, AEER has utilized a 
diverse group of over 1,700 volunteers from 50 countries of 
origin for our testing and we have simulated actual 
environmental conditions in which the technology would operate.
    To inform concepts of operation and scenario-based testing 
and to collect data in support of subsequent CBP cost analysis, 
we sent teams into the field to observe and analyze current 
airport operations. This entailed close cooperation with CBP 
headquarters and field staff, as well as airport and airline 
stakeholders. AEER facilitated working sessions with front-line 
CBP Officers to solicit their operational insights and inform 
their project's technical roadmap.
    Externally, we engaged industry groups, including Airlines 
for America, Airports Council International North America, the 
International Air Transport Association, or IATA, and the 
Association of American Airport Executives, to gain an 
understanding of the direct and indirect economic impacts of 
various biometric exit concepts of operation in the airport 
environment.
    We proactively and regularly invited airline, airport, and 
biometric industry groups to the Maryland test facility and 
hosted webinars to keep stakeholders updated and to solicit 
their feedback. We even co-chaired IATA biometrics working 
groups with Lufthansa.
    Through the Apex AEER Project, we have gained a robust 
understanding of the state-of-the-art of biometric technologies 
and how these technologies interact with passengers and might 
fit into various concepts of operation. With simulated testing 
of the biometric exit technology complete, CBP has taken 
responsibility for the airport-based pilots of biometric air 
exit. Apex AEER's products will inform CBP's path forward to a 
Nation-wide deployment for the biometric exit program.
    As we move into 2017, S&T will continue to assist CBP in 
data analysis for the upcoming pilot phases needed, and we 
stand ready to invest in additional R&D work should the need 
arise as results of the pilot. With this transition of S&T's 
air exit work to CBP, the Apex AEER Project will end this year.
    We are developing out-briefs to share our high-level 
results and lessons learned with industry and Government 
partners, including, most recently, the Transportation Security 
Administration. S&T will continue to work with CBP's Office of 
Field Operations to re-engineer the air-entry process. This 
work is important not only to implementing a full biometric 
entry-exit process, but to helping CBP manage growth in 
international travel.
    Leveraging emerging biometric and mobile technologies, we 
will explore innovative ways to build upon and further secure 
valuable programs like Mobile Passport Control, Global Entry, 
and Countering and Measuring. Technology is undoubtedly an 
essential ingredient of effective border security. S&T will 
continue to collaborate with our components and partners to 
bring technology to operational use and help enhance border 
security.
    I thank the committee for giving me the opportunity to 
testify on this very important subject and I look forward to 
your questions.
    Ms. McSally. Thank you, Mr. Burns.
    I now recognize myself for 5 minutes for questions.
    I want to first make sure we understand the scope of the 
challenge and the numbers. Your visa overstay report for fiscal 
year 2015, which we very much appreciate, indicated 482,000 
overstays, has since been whittled down over time to, I think 
to 355,000. But just, I know you all understand this, but for 
the record, that was just for air and sea arrivers, and also 
just in B1 and B2 categories. So what we are missing is the 
rest of the categories arriving by air and sea, and all 
overland arrivals in departures.
    Is that correct, Mr. Wagner?
    Mr. Wagner. Yes, that is correct.
    Ms. McSally. So if we were to extrapolate about the 1 
percent rate of overstays to those other categories, like what 
would that number estimate to be if we would say 1 percent of 
the additional people that were not measured? What are we 
talking about here?
    Mr. Wagner. We will have the numbers on the Canadian border 
on the next report. It is kind of tough to estimate because it 
is a different type of traffic, crossing a land----
    Ms. McSally. Well, I am just trying to understand, like, we 
measured how many visitors total--4 million, or what was the 
number that we measured?
    Mr. Wagner. Oh, it is 382 million passengers last year 
total; 250 million came across the land border----
    Ms. McSally. Okay.
    Mr. Wagner [continuing]. One hundred twelve million came 
land and sea, but that is total. That----
    Ms. McSally. Okay. I will follow up for the record. I am 
just saying if we can extrapolate the same rate to total 
visitors, I am just trying to understand what we think the 
magnitude of the overstay might be. Does that make sense if we 
extrapolate a 1 percent rate?
    Mr. Wagner. Yes. Let us get those numbers for you.
    Ms. McSally. Okay, great.
    Mr. Healy, I am concerned about--these numbers are pretty 
large. So we have, you know, known, 482,000 but probably more, 
and you have gone through the process of how you sort of 
whittle that down with your resources to identify who are high-
risk. I have a couple of questions on--you mentioned you test 
that against several databases.
    In your testimony it talks about viewing social media and 
other means. Are these not tests that are done prior to issuing 
someone a visa? Are the things that you are finding to identify 
somebody high-risk--they are here for 90 days, so they have 
committed a crime just in those 90 days? Like, can you just 
walk me through that process?
    I am particularly interested in social media. This 
committee has been very concerned about use of social media for 
vetting people prior to issuing a visa. So I want to know what 
we are doing with social media after the fact to identify high-
risk overstayers.
    Mr. Healy. Well, ma'am, as you are aware, Secretary Johnson 
did direct that a social media task force be created within the 
Department. The Department is about to transition into a DHS 
Social Media Center of Excellence, which will be housed and 
hosted by CBP, which we will be a part of.
    In answer to your question, the first part of the question 
ma'am, on a limited basis we do utilize social media in a visa 
security program for individuals coming into the United States. 
We do not utilize social media to review every application.
    Ms. McSally. Yes, I am familiar with that. I am just 
talking about you whittling down the 480,000----
    Mr. Healy. Okay. Yes, yes ma'am. Now, getting to the 
overstay population, my numbers are actually a little larger 
than the 480,000 because my numbers include everything received 
coming out of ADIS. So that includes students, and it includes 
all visa categories.
    The first thing that we do, ma'am, is we check to confirm 
whether or not those individuals have departed again, we will 
go back to ADIS. We will also check with CIS to see if they 
have tried to attempt to obtain any benefits.
    We will also reach out to the intelligence community. We 
are more than happy in a detailed briefing, ma'am, in an 
appropriate setting to give you more background, but we reach 
out to the intelligence community and they provide information 
that we make decisions upon.
    After those decisions are made, we continue our vetting 
process by prioritizing the names. We have a criteria that we 
use in coordination with the intelligence community on law 
enforcement. We will put those names within certain categories 
and then we will rely on analysts to manually vet those names. 
If we are able to establish some type of derogatory 
information, if we are able to establish the location, then we 
will continue to prioritize as we go down the line.
    When we get to the point, ma'am, where the leads are ready 
to be sent out to the field, we in turn--sometimes we will use 
social media. If we haven't had an opportunity to fully locate 
the individual and we want to enhance our ability to find that 
person, then those leads will go out to the field.
    Once out in the field, again, 40 percent of the leads that 
we sent out of that 10,000, ma'am, it was determined that 
individuals were in compliance. They had already either 
departed or they had applied for and received CIS benefits.
    The remaining individuals, we will proceed, whether it be a 
criminal-type investigation or whether it just be an 
administrative removal.
    Ms. McSally. What is the time frame--the average time frame 
for this process that you just mentioned? Somebody is here for 
90 days, they have overstayed their visa, and now you are 
whittling down these numbers. What are we talking about? Are we 
talking about days, weeks, months?
    Mr. Healy. It could be a month, a couple of months, ma'am. 
Because once the information--I mean, the manual vetting 
process to go through all of these--forget about the automated 
batch reviews that we do. Analysts have to go through this 
information because from our perspective it can't go out into 
the field unless we know that it is a real individual and we 
know where that individual is located. So it can take a little 
bit of time because again, ma'am, these aren't all just B1s, 
B2s; we got students involved, we have other categories that 
are involved as well.
    Ms. McSally. Great. It was previously reported to me that 
about 3 percent of your resources are used on these types of 
investigations on visa overstays. Is that still an accurate 
image?
    Mr. Healy. I have to get back to you, ma'am, but last year 
total within the entire program we spent 650,000 hours on visa 
overstay enforcement. I have a unit, the Counterterrorism and 
Criminal Exploitation Unit, this is all that they do in 
coordination with contractors, in coordination with----
    Ms. McSally. How many people are in that unit?
    Mr. Healy. I would have to get back to you on the exact, 
ma'am, but I would probably say well over 100.
    Ms. McSally. Okay. Great, thanks.
    My time is expired.
    The Chairwoman will now recognize Ms. Torres, from 
California.
    Mrs. Torres. Thank you.
    For Commissioner--or Deputy Commissioner Wagner, what are 
the different challenges of implementing a biometric entry and 
exit system on our Northern Border versus implementing that 
similar technology on our Southern Border?
    Then a follow-up from that for Ms. Burriesci, can you--once 
he answers, will you please follow up and discuss the training 
process of how we intend to bring up-to-date the agents working 
at both borders?
    Mr. Wagner. Thank you for the question.
    At the land borders, unlike on the inbound traffic, we do 
not have facilities in ports of entry constructed to be able to 
stop traffic and confirm somebody's departure. That is common 
on both borders. Places where they collect a toll to cross a 
bridge, there is some natural stop-and-go, which we can conduct 
some out-bound operations in, but if it is just a highway that 
goes across, they don't stop until they hit the Canadian or 
Mexican in-bound facility.
    Now, the big difference with the Northern Border is the 
Canadian government does record the arrival biographically of 
everyone into Canada, so we have worked out an arrangement 
where we exchange the out-bound and in-bound data--our in-bound 
data and their in-bound data--to service as that out-bound 
departure record on all non-U.S., non-Canadian citizens.
    On the Mexican border, the Mexican government does not 
collect that type of information. So some of the discussions we 
have with them is is there a possibility to help them build the 
infrastructure to be able to do that and have a similar type of 
exchange.
    When we focus on the biometrics, none of the countries have 
the ability to collect the biometrics from passengers in a 
vehicle that is moving by or even stopping, so there is the 
extra challenge of finding technology that can work and look 
inside of a passenger vehicle or a bus with 50 people aboard to 
be able to retrieve those biometrics short of getting everyone 
out and lining up in front of some type of equipment to collect 
it.
    I think looking at the numbers of non-U.S., non-Mexican, 
non-Canadian citizens crossing the land borders, the numbers 
are very, very low. If we look at the number of, say, visa 
waiver travelers, they are very low that are crossing the land 
borders.
    So we are looking at efforts and what programs can we build 
to start with those populations first and start to move out on 
being--doing this. But it will be a bit of a manual-type 
process until the technology really emerges to do that.
    Mrs. Torres. Okay. Can you talk about the training process 
of bringing the agents up-to-date on training on biometrics--
time line, time frame as to what that will take? Can you also 
touch on this infrastructure that the Canadian has versus what 
we have and how the two compare?
    Ms. Burriesci. Well, the Office of Policy does not direct 
training for officers so I will defer those questions to CBP.
    Mr. Wagner. This was on the training of the biometrics? I 
am sorry.
    So our officers go through a 19-week academy when they get 
hired, then there is on-going training efforts on current 
trends with----
    Mrs. Torres. I am not talking about new hires; I am talking 
about the people that are already there and then we have a new 
system coming up.
    Mr. Wagner. Right. So we will embark on a training regimen 
to teach them how to use the new systems, what the policies 
are, the technical requirements on how to operate the systems, 
and then what the trends are with what we are seeing and what 
we are trying to accomplish as far as fraudulent documents, 
counterfeit documents----
    Mrs. Torres. Is that an 8-hour program? Is that a 2-week 
program? Is that a 3-week program?
    Mr. Wagner. It all depends----
    Mrs. Torres. Is that a 6-month program? What does that look 
like?
    Mr. Wagner. It all depends on the type of technology we are 
delivering and how complicated or complex or new it is to the 
office. If it is just building on a current capacity, it might 
be as simple as a 4-hour training. If it is something brand new 
and a whole different approach with new policy implications it 
may be a full day, 2 days, or a week. It all depends.
    Mrs. Torres. So what are you looking at planning-wise for 
personnel that would be taken out of the field to do that type 
of training?
    Mr. Wagner. For which----
    Mrs. Torres. I mean, we are talking about implementing a 
biometric program, but you are telling me that we have no 
answers as to how we plan to implement and train the folks that 
will be utilizing this program----
    Mr. Wagner. Okay. So----
    Mrs. Torres [continuing]. Budgets that you will need in 
order to implement it?
    Mr. Wagner. Right. So when we make the final determination 
on how the technology will operate, there will be a personnel 
cost on getting officers to work the equipment and then respond 
to the information that equipment is going to provide. So if we 
have a mismatch on a biometric on someone departing the United 
States, an officer has to respond. If we have a case where it 
is a law enforcement action, an officer will have to respond. 
But it is too soon to calculate what those personnel costs will 
be.
    Mrs. Torres. Thank you. I am out of time. I yield back.
    Ms. McSally. Thank you.
    It is the understanding of the Chair that the gentlemen 
from Pennsylvania, Mr. Barletta, has a limited amount of time 
to spend with us this morning. Without objection, Mr. Barletta 
is recognized out of order for 5 minutes.
    Mr. Barletta. Thank you.
    What happened this weekend in Orlando was tragic. My 
prayers, as all of ours, are with the victims and their 
families and with our brave law enforcement officers on the 
front lines in this fight. This attack is at the very least 
inspired by radical Islamic terrorism and once again 
demonstrates that radical Islam and ISIS are at war with us and 
want to attack our Western values.
    One way that they will do this is through our visas 
programs, which can be easily exploited. This threat is not 
new. Congress first mandated the establishment of the fully 
functional entry-exit system in the Illegal Immigration Reform 
and Immigration Responsibility Act of 1996.
    The 9/11 Commission taught us that to terrorists, travel 
documents are just as important as weapons. That is the 
preferred method of entry into our country for terrorists: Come 
here legally and they just stay, disappear into the heartland.
    According to the 9/11 Commission Report, a biometric exit 
capability could have assisted law enforcement and intelligence 
officials in August and September 2001 in conducting a search 
for two of the 9/11 hijackers who were in the United States on 
expired visas. Mohamed Atta overstayed a tourist visa and Ziad 
Jarrah violated his student visa.
    This is a point that I have consistently raised since 
joining this committee. For example, one of the terrorists for 
the 1993 World Trade Center bombings was Mahmud Abouhalima. He 
overstayed a tourist visa and received amnesty when 
comprehensive immigration reform passed in 1986. He was a cab 
driver, but he claimed to be a seasonal agricultural worker. 
The only thing he planted in America was a bomb.
    In 2004 Congress followed the recommendations of the 9/11 
Commission and required the use of biometric technology in the 
entry-exit system by passing the Intelligence Reform and 
Terrorism Prevention Act. Yet our Government still has not 
implemented the exit component of this National security 
system.
    I believe it should be a priority for Congress to address 
this gaping loophole. We should know in real time when a 
foreign national has left our country.
    Why? Because when I first came on this committee we were 
talking about roughly 40 percent of illegal aliens being 
present in our country because of their overstayed visas, yet 
the Department's own incomplete--very incomplete--data shows 
that in the fiscal year 2015, 483,000 individuals overstayed 
their visas while 337,000 were caught by the Southern Border.
    More people overstayed their visa than were caught 
illegally crossing the Southern Border.
    Mr. Wagner and Mr. Healy, we have always assumed that about 
40 percent of the people here in the United States illegally 
overstayed their visas. Can we now say that is a gross 
understatement of the visa overstay problem? Mr. Wagner and Mr. 
Healy, can we follow up here? Were you surprised to find that 
more individuals overstayed their visas than were apprehended 
crossing the Southwest Border?
    Mr. Wagner. Well, I think if we look at the visa 
population, it is less than 1--about 1 percent overstay their 
visa of all the visa travelers that are entering the United 
States. As you extrapolate over time----
    Mr. Barletta. But you are counting people who come in 
multiple times, right? If I am going back and forth, you are 
counting----
    Mr. Wagner. No, these are individuals that overstayed their 
period of admission on a visa. We had calculated it at--for the 
B1, B2s, which is the majority of them, 1.74 overstayed. As you 
extrapolate that over time of course that number does decrease 
because people do leave, but later on. But I don't think you 
can draw a comparison to the people crossing the land border in 
between the ports of entry.
    Mr. Barletta. So you disagree that more people overstayed 
their visa than crossed the----
    Mr. Wagner. No, I didn't say that. I don't understand the 
comparison that is being made between those 2 numbers. Yes, 
there is about 1 to 2 percent of people overstay their visas, 
but I am not sure I understand the correlation with the 
Southwest Border numbers.
    Mr. Barletta. Are you surprised that more people overstay 
their visas than cross the border illegally?
    Mr. Wagner. I was not surprised by these numbers, no.
    Mr. Barletta. Okay.
    Mr. Healy.
    Mr. Healy. I am not surprised by the numbers either, sir. 
But from my perspective, we receive the information and I just 
wanted to let you know that we are as committed to trying to 
track down and trying to vet these numbers for National 
security and public safety purposes. So the way we would look 
at it, sir, is numbers come to us, we follow them to where they 
take us.
    Mr. Barletta. I have an important--I know my time is 
running out, but this is an important point I am going to make. 
I have begun to introduce legislation that makes a simple tweak 
to our laws.
    As we all know, if someone illegally crosses the Southern 
Border they are unlawfully present in the United States. That 
is the term you use. If someone crosses--comes in on a visa and 
overstays their visa, the term is that they are unlawfully 
present in the United States.
    It is the same term for both individuals, yet the penalty 
is very different even though both people in this situation 
have the same legal status: Unlawfully present. Their status is 
the same: Unlawfully present. But unlawful border crossing is a 
crime while overstaying a visa is a civil offense.
    Does it make sense, Mr. Wagner and Mr. Healy, does it makes 
sense that the penalty is different? Why doesn't it make sense 
for the same penalty--be the same penalty for both?
    Ms. McSally. We can take that for the record since the 
gentlemen's time has expired.
    The Chairwoman now recognizes Mr. Smith, from Texas for 5 
minutes.
    Mr. Smith. Thank you, Madam Chairwoman. I didn't know if 
you were giving him more time or not.
    Mr. Healy, let me direct my first questions to you, but on 
the way to doing so admit that I have a particular interest in 
the subject of entry-exit and overstayers. In 1996 I introduced 
a bill that became law that has still not been fully 
implemented, and if that law had been implemented I think we 
would have done a lot to address the problem of visa 
overstayers.
    Last year I think the administration deported about 2,500 
visa overstayers. Is that accurate?
    Is that the fewest number of any year under this 
administration?
    Mr. Healy. I would have to check and get back to you on 
that, sir. I am not sure.
    Mr. Smith. Okay. Let me tell you what the figures are and 
ask you the question again.
    This administration removed 12,500 in 2009; 11,200 in 2010; 
10,400 in 2011; 6,800 in 2012; 4,200 in 2013; 3,500 in 2014; 
2,500 in 2015. This is, in fact, the fewest number ever 
deported by this administration in 1 year.
    I would like to go to the overall figure. We have heard 
estimates as to the percentage of people in the country who are 
here illegally being visa overstayers. Percentages range from 
40 percent to 68 percent; let's take 58 percent.
    So let's take 10 million people in the country illegally. 
Half are here because they are visa overstayers and are in 
illegal status.
    So you have got 5 million people now in illegal status 
because they are visa overstayers. The administration deported 
2,500 of those. That is 1/20th of 1 percent.
    That sounds to me like an extension of the administration's 
amnesty program. Why are you not prioritizing these 
individuals? Why are you not sending more home? Two thousand, 
five hundred, the fewest of any year under this administration, 
1/20th of 1 percent.
    I know the administration favors amnesty. Is this, like I 
say, just part of their amnesty efforts?
    Mr. Healy. Sir, from my perspective, when you took a look 
at the removals process, when we look at the cases that we have 
worked and individuals who have gone into proceedings and then 
you look at the actual removals for that year, the removals 
process can be quite lengthy, as you are aware, sir. If we grab 
someone today, they are not necessarily going to be removed any 
time soon because it could take a while for them to go through 
the process.
    Mr. Smith. But the----
    Mr. Healy. In terms of our prioritization, sir, we utilize 
our prioritization scheme along with the resources that we 
have----
    Mr. Smith. I understand that. But the administration 
remains convicted by their own actions, by the facts. Why 
haven't they requested more money in their budget if they want 
to send more individuals home? They have not requested the 
money sufficiently to do so.
    Let me get at this point another way. How many 
investigations were conducted last year?
    Mr. Healy. Within this area, sir, specific to 2015, we sent 
out 10,000.
    Mr. Smith. Okay. Those are 10,000 individuals whose 
identity you knew, whose location you knew, but you did not 
consider a priority because they had not been convicted of 
serious crimes. Is that correct?
    Mr. Healy. No, that is not true sir.
    Mr. Smith. Okay.
    Mr. Healy. Those investigations were sent out for the field 
investigators to locate and to try to remove these individuals. 
But can I add one other point, sir?
    Mr. Smith. Sure.
    Mr. Healy. If we send a lead out to the field, or if we 
don't have the location of an individual, or if we have say a 
teenager who might not necessarily be of age but we are aware 
they are in our pool, if we have a situation where we know 
somebody has applied for a benefit, however they have yet to 
receive the benefit, all of that plus the individuals we cannot 
locate out in the field get continuously monitored.
    Last year, sir, 95,000 people were continuously monitored, 
and we periodically recheck those against the intelligence 
community, against CIS, against ADIS, to make a determination 
as to whether or not we have the information to send them back 
to the field.
    Mr. Smith. Had you chosen to do so, many thousands of those 
individuals could have been deported. You picked 2,500 of the 
many, many thousand. You mentioned if they have applied for a 
benefit; there is an immense amount of fraud there where 
individuals know how to game the system, apply for a benefit, 
then they know they are not going to be deported.
    My concern with the administration's actions is that by 
sending so few home, by deporting such a small percentage of 
the visa overstayers, the message they are sending wide and far 
is just get into the country. If you are not convicted of a 
serious crime, you are going to be allowed to stay. You are 
going to pass go. You are going to get the money. That is the 
wrong message to send because it increases more illegal 
immigration, it sends a message that the administration is just 
trying to implement amnesty by another means, and, as I say, it 
is the wrong message to send if you are really serious about 
trying to address illegal immigration in America.
    Thank you, Madam Chair, and I will yield back.
    Ms. McSally. Gentleman yields back.
    Chair now recognizes Mr. Duncan, from South Carolina.
    Mr. Duncan. Thank you, Madam Chair, and thanks for this 
hearing. Thanks for the information provided about visa 
overstays.
    We talk a lot about it back in the district. I talked about 
visa overstays with some students that were in my office this 
morning. The number I used then was 49 percent of all visa 
overstays, of all illegals in this country, were people that 
overstayed their visa--people that we gave a permission slip to 
to enter this country. They had a interview or went on-line 
with a Visa Waiver Program, but the bottom line is they came to 
this country with a permission slip, known as a visa, and 
decided to stay, for whatever reasons.
    The numbers you have here are 68 percent. It is an alarming 
number.
    We have entrusted these people with access to our country 
and they chose to violate that trust. Now I think that is low-
hanging fruit for enforcement.
    We are not chasing a footprint in the desert. We know who 
these people are. They had an interview. They had a name, 
probably a correct spelling, some biometrics, according to Mr. 
Wagner.
    We know where a lot of them were headed--either a work visa 
or a student visa. But too many times they overstay. This 
student visa, then why not contact the university if their visa 
has expired and find out what their status is? Are they still 
enrolled? Maybe they are in a master's program. Maybe they need 
to have their visa extended. Maybe we get them into legal 
status and out of illegal status by extending their visa.
    Then we start reducing this number from 68 percent to a 
lower number, and then we can focus on the real problem in this 
country and that is our porous Southern Border that is being 
infiltrated by elements that have nefarious ideals, whether 
that is drug trafficking, human trafficking, or intent on doing 
harm to this Nation through acts of terror.
    ISIS has said they will infiltrate and exploit our porous 
Southern Border. They will infiltrate the Syrian refugee issue. 
Take them at their word.
    We send a lot of requests to Government agencies. I just 
sent a letter--actually several letters--to the Department of 
State asking about a memo, a white paper that was used to 
justify them circumventing the will of Congress in the Visa 
Waiver Program that we passed back in December in ways to try 
to get foreign nationals that have visited Iran or visited 
Syria or visited Sudan to circumvent our processes and the will 
of Congress, negotiated with the White House even, to allow 
those people to travel the United States.
    So they wrote a memo to justify that. We have asked for 
that, and asked for that, and asked for that, and I am asking 
for it again from the Department of State, to provide what we 
requested to Congress.
    Mr. Wagner, April 20, Chairman Perry asked Mr. Kolowski 
about the lost body armor and the 150 firearms that were 
unaccounted for by the CBP. Can you respond to why we haven't 
gotten a response from CBP on this?
    Mr. Wagner. No, sir. I was unaware you did not receive a 
response yet.
    Mr. Duncan. How about Government agencies be responsible to 
the United States Congress and respect our request for 
information?
    Okay. Entry-exit visas. When I think about--let's go back 
to just one thing in just a minute on the visa overstays.
    I will give you an example. Boston bombing happened. Had 
original person of interest that was apprehended and taken to 
the hospital. Turns out he was an F1 student visa overstay.
    He actually was supposed to go to Ohio University and was 
over in Massachusetts as a student at another university. Why 
didn't Ohio let the Department know, the U.S. Government know, 
that this gentleman who came to their university on a student 
visa was no longer enrolled there?
    These are common-sense things that American people expect 
us to do to start dealing with the number of illegals in this 
country. That gentleman is not in the country any more, by the 
way.
    So talk with me about an exit system. Right now we are 
checking airline manifest, but if I go to Japan, I am going to 
scan my thumb when I am leaving. They are going to know I left 
the country.
    What are we doing about that? Because Congress has actually 
mandated that system. What are we doing?
    Mr. Wagner. I am not aware that Japan is doing biometrics 
on departure. I know that they are doing it on entry, like 
several other countries around the world. I am not aware of 
many countries that do a 100 percent biometric exit on 
departure.
    Some countries have put automated gates in to speed their 
own citizens and others' departure from that country, so there 
are some automated gates that they do allow people to use, but 
they also have officers and departure control systems set up in 
departure terminals exclusively for that, so it is easy just to 
put up a gauntlet of machines to help get everybody going 
through there.
    Now, we are working to deploy the biometric capability on 
departure. We launched a pilot yesterday----
    Mr. Duncan. We have been working for several years now. 
When do we expect the Federal Government to finish this 
project?
    Mr. Wagner. We will have this deployed and operational by 
fall of--by 2018. The Secretary has committed to 2018 to be 
doing this and we intend to do this. There are several steps we 
have to take before we get there, including launching this 
pilot, which we did yesterday, which will give us really the 
final requirements for what this solution will look like.
    Mr. Duncan. I appreciate the pilot and I appreciate you 
saying 2018. I look forward to you coming back to this 
committee and telling us, ``This is done. We will know when 
people have exited the country that have entered from a foreign 
country.''
    I yield back. Thank you, Madam.
    Ms. McSally. Gentleman's time is expired.
    Chairwoman now recognizes Ms. Sheila Jackson Lee, from 
Texas, 5 minutes.
    Ms. Jackson Lee. Let me pass for Mr. Hurd and I will go 
after him.
    Ms. McSally. Chairwoman now recognizes Mr. Hurd, from Texas 
for 5 minutes.
    Mr. Hurd. I would like to thank my colleague from the great 
State of Texas, want to thank the panelists for being here. 
Y'all have a difficult job, and I recognize that.
    Mr. Healy, I have a set of questions for you. It has been 
argued that an accurate entry-exit system would enhance ISIS 
enforcement efforts by reducing DHS's need to review potential 
overstay leads that turn out to be false positives. For 
example, about one-quarter of the leads HSI investigated 
between 2004 and 2012 were individuals who had already departed 
the country.
    Could you explain to the committee how leads are generated 
and sent to the field offices? I know you addressed that a 
little bit in your answer to my colleague from Texas.
    Mr. Healy. Yes, I can, sir. So the information, the 
referral, is received from ADIS, Arrival Departure Information 
System. From there it is plugged into the automated targeting 
system CBP belongs to.
    It starts to work with my organization. This is all 
basically automated, sir. First thing we are going to do is we 
are bouncing it up to the intelligence community a batch 
request. We are going to send it next over to CIS to see how 
many are basically in compliance or have applied for benefits, 
and then we are going to send it back, sir, to ADIS to see how 
many have departed in that window between receipt and when we 
are processing.
    Just that alone out of that 971,000 number that I provided 
you, we have already eliminated now 141,000 records in that 
quick exchange between us and CBP.
    The next thing, sir, we are going to wait for the response 
from the intelligence community, and we will take appropriate 
action depending on how we prioritize something depending on 
the response.
    Now we meet, sir, with the--a group of interagency 
intelligence community and law enforcement partners. They have 
given us a tiered system, a way to prioritize individuals in 
terms of U.S. security interests. I am more than happy, sir, 
to--in a closed setting to give you much greater detail on how 
we do that.
    Once that information comes to us and it is bucketed and 
prioritized, now I have to have analysts who have to manually 
vet all of that information. When they vet it, sir, we are 
looking for any type of derogatory information across 22 
Government systems that will enable us to turn around and 
validate what we are doing and locate the individual.
    It will continue to work its way through the chain, sir. 
Once we get to that determination, now it is going to be sent 
out to the field office.
    The referral goes out as a collateral lead investigation. 
The field office is provided with a jacket, all the information 
that we have, and the field office is requested to go proceed.
    It can go down a criminal road; it can go down an 
administrative road. But that, in a nutshell, sir, gives you an 
overview of the process.
    Mr. Hurd. That is helpful, and that is helpful for the 
American people to understand the process and what you all go 
through to identify these leads that you have to follow. So 
would a biometric exit capability reduce that amount of time 
because it allows you to focus on people that are actually 
still in the country?
    Mr. Healy. Well, the example I would use, sir, and the 
Chairwoman cited it before, as those investigations get sent 
out to the field, out of that 10,000, 40 percent of those, they 
are deemed to be in compliance. So it is not an efficient use 
of resources.
    If we have the appropriate system as it evolves and gets to 
it, we will be able to better apply those resources toward a 
legitimate enforcement use instead of somebody who has already 
left the country or has accrued CIS benefits and we can't take 
action on them.
    So, yes, sir. The answer is yes.
    Mr. Hurd. Good copy.
    Is there currently a backlog of unmatched overstay records 
for terrorism and public safety threats?
    Mr. Healy. In what way, sir?
    Mr. Hurd. As you have vetted the potential leads through 
the intelligence community, those 22 agencies that you said you 
are reviewing, and there was derogatory information, is there a 
number that you all haven't been able to begin investigation 
on?
    Mr. Healy. Well, some of it, sir, would be the information 
that is received. We might have a name; we might have a name 
and a date of birth; we might have John Smith who is staying 
down at a hotel in Disney World.
    Depends on the individual. Depends on the information. But 
I can tell you that this group--we call it the Compliance 
Enforcement Advisory Panel, and they are very supportive of 
assisting us to get the information that we need quickly so 
that we are able to follow up on these leads. I hope that 
answers your question.
    Mr. Hurd. Yes. Do you have a percentage of those folks that 
have been identified by one way or another as having an 
overstay--that have derogatory, whether it is an SAO advisory 
or--they have derogatory information and you have a limited 
amount of information to conduct an investigation?
    Mr. Healy. Yes, sir. What we will do is, as I referenced 
the continuous monitoring process before, if--even if a lead 
goes out to the field and it is exhausted, meaning that the 
agents can't locate the individual, it circles right back 
around and it goes back into our tank. That would be inclusive 
of our intelligence community engagements as well.
    If we can't identify and we don't have enough to move 
forward, we will hold it in our tank. If ADIS provides 
information or CIS or the I.C., we will repeatedly batch those 
requests and bounce them on a quarterly basis off other systems 
to kind-of update and refresh the record. Does that make sense, 
sir?
    Mr. Hurd. It does. Thank you.
    Mr. Healy. Okay.
    Ms. McSally. Gentleman yields back.
    Chair now recognizes Ms. Jackson Lee, from Texas for 5 
minutes.
    Ms. Jackson Lee. I thank the gentlelady and I thank the 
Chairwoman. I thank the Ranking Member as well.
    Let me acknowledge the representatives here from the 
Department of Homeland Security and add my personal 
appreciation to your service. We are having this hearing and it 
was scheduled before the heinous and horrific terrorist act of 
this past weekend.
    We know every day that you are on the front lines and many 
of you I have engaged with on a number of issues. We recognize 
that we also live in a Nation that deals with the issues of 
civil liberties and civil rights, and we understand that 
security has to be responsive to that.
    Let me before I ask my question, make a few comments. Madam 
Chairwoman, just to set the record straight, as I look at the 
Pew Research Center we note that there are about 93,000 
overstays coming out of Canada, 123,000 out of Europe, and 
about 42,000 out of Mexico. There have arrived Central America, 
17,000, and then we go down further with South America that has 
93,000.
    So this overstay issue is not predominant to any one area. 
I think that is very important. I believe that the President's 
approach of focusing on those who would do us harm is the most 
important approach.
    Let me also add to the record that this is, the DHS found 
that there were a total of 44.9 million nonimmigrant visitor 
admissions in the United States, air or sea, who were expected 
to depart fiscal year 2015. Of this number, an estimated 
527,127 individuals overstayed. That is 1.17 percent.
    So today I am really going to say that the Congress has 
some higher responsibilities right now. I think we need to pass 
a no-fly, no-buy; that if you are a terrorist on a terrorist 
list most Americans will not realize that the Department of 
Homeland Security can only abide by the law. The FBI can only 
abide by the law. Frankly, they cannot stop terrorists or 
individuals who have been investigated from buying for 
terrorism activities a gun. I hope we can pass that today or 
this week in regular order, that we can have that legislation 
passed.
    The banning of the assault weapons is something that the 
Secretary of Homeland Security has offered to provide security 
to the American people. That bill is ready to be passed right 
now.
    So I believe we will find that the alleged perpetrator, now 
dead, that did the heinous attack on the gay community, heinous 
attack on Americans, heinous attack on Latinos--dominant 
numbers of these individuals were from the Hispanic community--
he was not an overstay.
    Why don't I just ask the question? Mr. Wagner, was--to your 
knowledge, was the individual that perpetrated the heinous act, 
do you have any facts that he was an overstay?
    Mr. Wagner. I believe he was a U.S. citizen born in New 
York.
    Ms. Jackson Lee. Thank you, sir. I wanted to clarify that 
from the record from Mr. Wagner. He was a U.S. citizen born in 
New York.
    So, we are here confronting an issue that is important. The 
American people believe that there should be regular order in 
the immigration process.
    I believe in comprehensive immigration reform, which would 
allow Department of Homeland Security to see more people, vet 
more people, and reject more people, because in fact you would 
have a process for admission, or you would have a process for 
the overstays to engage in regular order. I think that is 
important.
    I do want to raise one question about technology. I have 
supported pilot programs, Mr. Burns, dealing with the 
technology, the biometric technology of overstays. That is what 
you need. You are much better at overstay situations in the 
airports or aviation than you are at the land areas, as I 
understand it.
    But would you share with me what you are doing in Science 
and Technology--if you do it quickly; I have one last 
question--on dealing with this technology that you need to 
better refine the issues of overstays? For all overstays, of 
course, you have a visa or you come in legally, and then it 
expires and you don't leave. Thank you.
    Mr. Burns. Thank you for the question. To follow up, it 
is--as Mr. Wagner said, it is an application issue. Biometric 
technology and the field of biometrics is rapidly evolving. It 
is, how do we take the actual pieces of technology and build 
them in to the operational process?
    The border situation, as Mr. Wagner stated, looking at 
people in vehicles, buses, is very different than the 
operations of an airport. So we are continuing to evolve and 
support looking at all biometric technology, actively working 
with the biometric industry, both large and small business, to 
make sure that we can bring the proper technology to the table, 
linking it to the operational process.
    In deference, I will stop. You said you wanted more time.
    Ms. Jackson Lee. I do. Thank you very much. I am gratified 
for that.
    Let me ask----
    Ms. McSally. The gentlelady's time is expired.
    We are going to do another round, though, if you wouldn't 
mind deferring.
    Ms. Jackson Lee. Could I just get this last question out on 
the record?
    Ms. McSally. I cut everybody off at a little after 5, so if 
you want to submit it for the record or wait for a second 
round?
    Ms. Jackson Lee. I will do that for the record, then.
    Mr. Craig Healy--and I may be able to stay--and Ms. Kelli 
Ann Burriesci, if you would, I would be interested particularly 
in student overstays, which is somewhat difficult, and whether 
or not we include--incorporate the institution that they are 
supposed to be going to as an assist or a partner in 
determining. Is there a reporting feature that students--that 
universities have to utilize with respect to students?
    I would add employment, as well, because a lot of those 
visas, those H-1B visas, individuals have their families here, 
they have rooted here, and then they are without employment, 
looking for employment, and they may be considered an overstay.
    Ms. McSally. Okay. The gentlelady's time is expired.
    Actually, I was going to ask about student visas in my next 
round, so I will ask the panelists to answer concerns about the 
student visa process. Those are not in this report, just so we 
know.
    Also I want to note, Mr. Healy, in the testimony you said 
for CTCEU's priority No. 1 list you listed a series of projects 
and initiatives, and one of them is called the Recurrent 
Student Vetting Program. So let's talk about the student visa 
process and compliance with universities, information flow, and 
how this all works.
    Mr. Healy. Yes. Yes, ma'am.
    So in terms of the SEVP program, the Student Exchange and 
Visitors Program, we do have on several fronts in terms of 
overstays. We would not treat them any differently than we 
would any other overstay category.
    So in the numbers that I referenced earlier, ma'am, those 
are not only being fed into terms of SEVP submissions coming in 
from SEVIS. In other words, if a school determines that a 
student is no longer within a program and they terminate the 
student, the school will report that to SEVIS. That will come 
in to us.
    There is also----
    Ms. McSally. Could you talk about the compliance rate? I 
noticed you talk about the airlines--there are fines and nearly 
100 percent compliance rate for passing information to you. 
What about educational institutions' compliance rate, and are 
there any fines for noncompliance?
    Mr. Healy. Well, there could be, ma'am. I will speak a 
little bit in generalities about it. I will have to get you 
specifics in terms of the actual program.
    But from our perspective, yes, we do have a robust 
compliance program. We do site visits--unannounced site visits. 
We are able to turn around and do out-of-cycle reviews. As you 
are aware, every school is mandated that they be certified 
every 2 years.
    So we have a robust engagement with the schools through 
SEVP. It is required that the schools--their designated school 
officials report the information. If an individual stop 
attending class or if there is a problem with the student, they 
are required to report that within I believe a 30-day period.
    We have also started a new program, ma'am, in terms of our 
field representatives. We now have 60 individuals that are 
geographically placed around the country. Their job is to be 
that in-between. They visit schools daily to make sure that the 
information flow is continuing.
    In terms of your question about recurrent vetting, what 
that basically means for us, as a part of our prioritization 
process every student that is legitimately in the United States 
attending school, when derogatory information comes in it is 
vetted against every individual student. So it is just another 
opportunity to make sure that we are being as expansive as we 
can be in our vetting processes.
    In terms of specific compliance rates, ma'am, I would have 
to get back to you on that.
    Ms. McSally. Okay. Great. Thank you.
    Will next year's report include visa overstay information 
on students as well?
    Mr. Wagner. Yes. We plan to include the student visas, some 
of the worker visas, as well as the U.S.-Canada land border 
non-U.S., non-Canadian travelers.
    Ms. McSally. Okay. Great, thanks.
    I want to follow up on the report. This is the entry-exit 
overstay report, and I ask unanimous consent that it be entered 
into the record for fiscal year 2015, the one that has been 
referenced several times today.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is 
available at https://www.dhs.FY%gov/sites/default/files/publications/
FY%2015%20DHS%20Entry%20and%20- Exit%20Overstay%20Report.pdf.
---------------------------------------------------------------------------
    Ms. McSally. Table one gives a review of Visa Waiver 
Program countries. Several of them are over 2 percent: Chile, 
Greece, Hungary, Lithuania, Portugal, and Slovakia.
    In your testimony you indicated that there is consideration 
to potentially using these overstay numbers to impact future 
inclusion in the Visa Waiver Program. Ms. Burriesci, can you 
clarify what is being looked at related to that?
    Ms. Burriesci. Overstay rates is part of something larger 
called the disqualification rate, and that is one of the 
requirements for a potential country to become a member 
country. So we do look at those overstay rates.
    Ms. McSally. Okay. It is just in the testimony it says we 
are looking at future--I can find the exact page that that is 
on--looking at future use of this information related to visa 
waiver countries, so I was just wondering what that meant in 
the testimony.
    Ms. Burriesci. Oh. Yes, ma'am. Thank you for that question.
    As we have testified, we have been working on the 
reliability and accuracy of that data. So as that data 
improves, we would use that information for making 
determinations on whether a country's status remains and 
whether their designation in the program remains or we need to 
take an additional action.
    Ms. McSally. So is that currently being utilized to make a 
determination? It is on page 7 in the top paragraph.
    Ms. Burriesci. There is not a Visa Waiver Program country 
that is currently over the 3 percent requirement.
    Ms. McSally. Okay.
    Then for the non-visa waiver countries we have got 
Afghanistan at 10 percent; Burkina Faso, 18 percent; Bhutan, 
24.89 percent; Chad, 17 percent; Djibouti, 27 percent; Eritrea, 
19 percent. I mean, these are huge numbers.
    So what is the information in this now? What is going on 
with this? Are you using it to decide whether countries should 
continue to have a certain number of visas or trying to address 
the issues of noncompliance with that country?
    Ms. Burriesci. The Department of Homeland Security assists 
in the vetting of the visas and the State Department issues the 
visas. So I am not sure if that answered your question or not.
    Ms. McSally. So is there any feedback loop from this report 
to DHS and the State Department? I mean, are we just continuing 
to issue visas to these countries that have 20 to 30 percent 
overstay rates, or is there any sort of punishment or 
accountability?
    Ms. Burriesci. That might be a question better referred to 
the Department of State.
    Ms. McSally. Okay. Is there any coordination that any of 
you can speak about from this information to the Department of 
State? Are they aware of it?
    Ms. Burriesci. The Department of State has the numbers that 
you have referenced, has the report information, yes.
    Ms. McSally. Okay. We will follow up on that.
    I will now recognize Ms. Sheila Jackson Lee for another 5 
minutes.
    Ms. Jackson Lee. Thank you, Madam Chairwoman, very much.
    I want to pursue my line of questioning, but I am going to 
pointedly ask for a more explicit response from Mr. Wagner, Mr. 
Healy on the job-related visas, the H-1Bs in particular, if 
there are others, in terms of any precise numbers that you may 
have of those.
    The numbers that we have--and I just want to recite these 
numbers again because I think it is worthy of including in the 
record--44.9 million nonimmigrant visitor admissions, and the 
record shows a estimated 527,127 individuals overstayed their 
visas, 1.17 percent. The report goes on to stay, in other 
words, 98.8 percent of nonimmigrant visas complied with their 
terms of admission and departed on time in fiscal year 2015.
    But do we have any sort of isolation of the numbers dealing 
with those who are overstays that relates to work? To Mr. 
Wagner and Mr. Healy.
    Mr. Wagner. No, we have not broken those out yet, but we 
will include those in next year's report. Now, this year's 
report included about 85 percent of all travelers, so all the 
other visa classifications covers about 15 percent of 
commercial air passengers.
    Ms. Jackson Lee. So you will do that for us next year? I 
think that will be very helpful.
    Mr. Wagner. Yes.
    Ms. Jackson Lee. But let me get to the bottom line of what 
my concern is. This should all be about, as we look at how we 
help you do your job, and I have already said a metric of new 
laws under the title that we have been speaking about, many of 
us for a very long period of time, comprehensive immigration 
reform, which again refines and defines probably even in a more 
detailed manner what happens to overstays, maybe based on the 
level of threat.
    I am not arguing for overstays. They are persons who are in 
the United States unauthorized. But I think the question for 
the American people is the issue of security and the level of 
threat that these individuals represent.
    Mr. Wagner has reinforced the public information that the 
deceased actor and terrorist for the event in Orlando was not 
an overstay, was not an immigrant. The individual was a citizen 
of the United States born in New York. So I am concerned that 
Department of Homeland Security, which last part of its name is 
security, is taken away from major responsibilities dealing 
with the level of threat.
    So to Mr. Wagner, Mr. Healy, you are in Homeland Security 
Investigations. Have you all been able to assess overall, say, 
the 500,000 individuals that have overstayed? Can we include in 
the report an assessment of the threat that they represent, 
which I believe is what the American people would be concerned 
with? Mr. Wagner, Mr. Healy.
    Mr. Wagner. Let us take that back and look at that for 
inclusion in next year's report, some analysis of what the 
overstay population encompasses.
    Ms. Jackson Lee. I think that would be extremely important.
    Mr. Healy.
    Mr. Healy. No, I would agree, ma'am. That is something that 
we are going to have to take back and consider and provide you 
that information at a future date.
    Ms. Jackson Lee. Let me continue that line of questioning.
    In your recollection--and help me. Obviously, I have served 
on Homeland Security. I am trying to just monitor mass 
shootings. San Bernardino. Maybe you can recollect because it 
would have come to your attention, were any of those 
individuals--the--as I remember, the Virginia Tech was an 
individual from the Asian community. The Connecticut and 
Newtown, Auburn--excuse me--Colorado, in the theater--you can 
just--does any overstays come to mind in any of those mass 
shootings? I may not have calculated all of them.
    Mr. Wagner. I can't think of any off-hand, no.
    Ms. Jackson Lee. So, we all want to do our research, make 
sure we are giving accurate questions, but to your--coming to 
your mind at this time--and I believe that if one was it would 
probably remain very viable, enough for you to remember an 
individual because it would have come to your attention as to 
what kind of person perpetrated those particular incidences or 
mass incidences.
    Mother Emmanuel was not; Colorado was not, to my 
recollection; Columbine was not; Virginia Tech was not; Newtown 
was not; San Bernardino were individuals who were statused, 
though they were immigrants, if I recall. Certainly going back 
to as far as 9/11, let me say that I am not ignoring that. That 
is 9/11--I used the term mass shootings--9/11 did have 
overstays.
    So my question would be, after 9/11 the Department of 
Homeland Security was created. Do you feel that you have enough 
structure in place that you would have caught or would have 
been drawn to the attention of the overstays that were part of 
the acts of 9/11 where there were overstays that were engaged 
in that?
    Mr. Wagner. I believe we would have identified them, yes. 
With the systems that are in place now and the measures that 
are in place now, I believe so.
    Ms. Jackson Lee. All right. Can you just expand on those 
systems without breaching confidentially?
    Mr. Wagner. I think, you know, well, one of the things we 
do is we take the visa database that State Department provides 
us and we run recurrent checks every day on that information, 
and if someone appears on a watch list that has a current visa, 
one of the things we do is look to say are they in the country 
or have they left the country. Regardless of whether they are 
an overstay or not, are they still here?
    We will provide that information to ICE, we will provide 
that information to the FBI, we will provide that to the 
intelligence community. But we have ways to identify those in 
real time when those things happen.
    Ms. Jackson Lee. Well, let me thank you, Madam Chairwoman. 
I am going to yield back.
    Mr. Healy, did you want to comment on the investigation 
part of it?
    Mr. Healy. I was just going to add, ma'am, that we rely 
heavily upon the intelligence community and our law enforcement 
partners to help us prioritize. So I am comfortable that they 
are providing us with good guidance for the individuals that we 
should be targeting and focusing on for National security 
purposes.
    Ms. Jackson Lee. That are coming into the United States.
    Let me thank you, Madam Chairwoman. I think I want to leave 
my time at the microphone with the ultimate question of the 
threat to the people of the United States and our 
responsibility of securing them. I think any hearing that we 
have here in this committee needs to be in that context, and 
thank the men and women who are on the front lines for doing 
so.
    I end by saying I know, Madam Chairwoman, this is not your 
jurisdiction, but I cannot help saying that this week we must 
pass no-fly no-buy. If you are in any way had discussions about 
terrorist activities or threatening comments toward the 
American people you cannot buy an assault weapon or any guns of 
any kind.
    I thank the gentlelady for being kind enough, and I yield 
back.
    Ms. McSally. Gentlelady's time is expired.
    I am going to go through another round. Again, I appreciate 
the patience of our panelists here.
    Mr. Healy, you mentioned in your testimony you had 10,000 
leads last year, 1,910 arrests, 86 indictments, and 80 
convictions. Is that number of arrests to convictions--that 
seems like a small percentage of arrests. Is that pretty 
typical or could you kind of speak about those that were 
arrested who, for whatever reason, have not been convicted?
    Mr. Healy. The arrests, ma'am, include not only criminal 
arrests but also administrative arrests. So in a situation 
where there might be a criminal prosecution following as part 
of an investigation, or there might be nothing much--might just 
be virtue of the fact of an administrative arrest because an 
individual is an overstay.
    Ms. McSally. So of the 1,910, do you know how many were 
criminal arrests and how many were administrative arrests?
    Mr. Healy. I believe----
    Ms. McSally. Can you just walk me through the process of an 
administrative arrest? Like what does that mean, and what 
happens after the arrest?
    Mr. Healy. What will happen is an individual will be 
encountered and they will be issued a notice to appear. It 
could be broken down into a couple different categories. If 
there is derogatory information, then it may be a custodial-
type detention or the individual might just receive the notice 
to appear and then they are required to appear before an 
immigration judge.
    If it is a Visa Waiver Program they are not required to 
appear before an immigration judge because that is waived by 
virtue of the fact that a person came in through the Visa 
Waiver Program. But it would basically not go down the criminal 
route, would not go through the U.S. attorney's office; it 
would be an internal administrative protocol that is run by ICE 
and enforcement and removal operations.
    Ms. McSally. Okay. So of the 1,910, do you know how many 
were administrative? If you don't we can----
    Mr. Healy. I have it, ma'am. I will get it for you.
    Ms. McSally. Okay. Do you also know--and this may be just 
for the record, and I wasn't planning on going down this road, 
but since you brought it up--of those that have been given 
notices to appear, are you tracking those that do not appear 
and do they kind of go back into the system here?
    Mr. Healy. That is correct, ma'am, yes. Yes. We can get you 
those numbers and break them down for you.
    Ms. McSally. So are they then included in the, you know, 
355,000 remaining, because they maybe sort-of left your numbers 
and came back to the numbers?
    Mr. Healy. Well, they would come back to us, ma'am, and 
they would actually wind back up in our continuous monitoring.
    Ms. McSally. Yes, okay. Okay. Great.
    Mr. Burns, can you talk about the Apex program and what we 
learned from the program and how that is going to inform our 
implementation of, you know, future--the future biometric exit 
program?
    Mr. Burns. Certainly. Thank you.
    The Apex AEER program I think was indicative of the 
Department's commitment to try and answer the question. So 
instead of it being the typical ``let's go develop something,'' 
it was really a collaboration between CBP and S&T to look at 
the biometric entry and exit issue.
    In addition, we brought in all of the stakeholders that 
would have to deal or be impacted by what we were doing. So it 
was very important to bring in the biometric industry, the 
airline industry, and everybody that would be part.
    So the first couple of months was actually getting 
everybody to identify the problem, both from a DHS operational 
perspective but also from an airline and an operation 
perspective as well. So the team was broad. The team was 
inclusive.
    Then we went and worked with industry, both small and large 
business, to identify the technologies--finger, face, and 
iris--which were the 3 that we deemed would fit in this 
operational construct, to bring them across the border and 
start the process.
    Biometric technology is evolving. Biometric technology is 
here to stay and I think will help answer the question. The 
issue is its application within the environment.
    Fingerprint technology that works well in one location does 
not work in another; the same with facial and same with iris. 
The simple thing is lighting or the environmental conditions of 
humidity will impact how we work it.
    So we ran a series of operational simulations within the 
Maryland test facility to see how well all those pieces would 
come together. All of that information has been provided to CBP 
so they can build into their longer acquisition program.
    We started from the get-go knowing that whatever the 
technical solution or products that we were going to bring out 
had to fit into their acquisition program. So operational 
requirements, cost-benefit analysis, all those things that 
would help them make a successful decision as they moved 
forward was provided to them.
    We also made sure that we looked at it from an entry and an 
exit holistic perspective. So whatever you do, as Mr. Wagner 
has said, on the exit side impacts entry. So we worked to see 
what could we do to speed up entry as we brought things forward 
for exit.
    We knew we had to deal with seconds. Five seconds added to 
an entry process is a huge amount of time. So we were down to 
looking at technology and operational processes that were 3 
seconds differential from something else, and we brought all of 
that together.
    Working with the general public was also incredibly 
important. As I stated, we had 1,700 people from 18 to 81. We 
looked at all ethnicities, 50 different countries of origin. 
Because once again, it has to work for everyone that is in the 
traveling public.
    Ms. McSally. Great. My understanding is there is an AEER 
report that you have that is going to be delivered to us, or 
can you give us a time frame of when we might----
    Mr. Burns. We are in the process of completing the high-
level report of our findings. It is not as detailed as we would 
like because many of the companies that brought their 
technology did it under the agreement that their intellectual 
property and some other aspects would be protected. But the 
high-level report is in process, should be ready this summer. I 
can get back to you with a specific date.
    Ms. McSally. Okay. Great. Thank you.
    Mr. Wagner, in the testimony--your joint testimony that 
already put together, said the compliance for--I know whether 
you guys call is APIS or A-P-I-S--is near 100 percent. I think 
in 2015 the number was 92 percent. Can we talk about what steps 
are being made to bring that to as close to 100 percent as 
possible? What are the reasons why it is not 100 percent?
    Mr. Wagner. Correct. So when the airline transmits the 
information to us we do all of our pre-arrival vetting and 
database checks on that. So when the person actually arrives 
and we read the document that is presented now, we compare it 
in the data fields against what the airline transmitted, and 
then we keep a log of any type of discrepancies.
    If there is data missing or inaccurate, the airlines are 
subject to a fine for that. We issue very few fines these days. 
I think we issued maybe about a dozen last year total.
    Generally I think they are for like missing crew data or a 
late transmission of the information. But we can certainly get 
you a breakdown of that.
    Where we see some of just the technical issues of a date of 
birth where they put the month and the day instead of the day 
and the month, some formatting issues like that, especially 
when it is keystroked in overseas by airline personnel and not 
through the machine-readable zone of the document, which is 
what we try to encourage.
    But by and large, the data is accurate both inbound--and 
what we have found with outbounds, even though on the departure 
manifest we are not there to validate each and every single 
transmission, what we are finding with the mobile technology 
that we deployed--one of the things we did is let's confirm the 
accuracy of what the airlines are providing.
    We are finding that it also was in the high-90 percentile 
of accuracy. When we conclude our report on the mobile 
technology, we will include those figures in there.
    Ms. McSally. Great. Thanks.
    I want to follow up, Mr. Wagner, on--I understand the 
differences between what we can do with Canada with information 
exchange and the challenge that we don't have a similar 
exchange with Mexico. Is there anything we can do with Mexico 
to address providing some better information for land ports of 
entry on the Mexican border in the short term? What are the 
ideas for the longer term?
    Mr. Wagner. Well, we continue to hold discussions with them 
about the databases that they do have and what types of 
information are potentially to share, what kind of information 
are we sharing already. You know, at the land border they just 
do not have a system or the technology or the infrastructure to 
collect the passenger-level information.
    They collect license plates, and we have talked about 
sharing them or exchanging that. But at the traveler level, 
they just don't have a system. So it is a case of we can build 
it on our side for departure and record it, or maybe we could--
this opportunity to work with Mexico to build the 
infrastructure to collect it and then both of us use it.
    That is, you know, the ideas and the concepts that are 
being kicked around, but we haven't really solidified an 
approach that would work.
    Ms. McSally. Great. Thanks.
    So a lot of what we have talked about so far and really the 
focus of the hearing is tracking people who are overstaying and 
using biographical and biometric information in order to know, 
you know, who has left and who is in compliance and who is not.
    You mentioned in testimony, and we are interested in this 
committee, about the pilot program of identifying to make sure 
the person is the person who owns the passport, right? So they 
could have a fraudulent passport, a stolen passport, and that 
may--you can match their fingerprints to them in and out but it 
still may be that there is fraud involved and that is not the 
person who it is supposed to be.
    The pilot project that we had to match the facial 
recognition--I am interested in the outcome of that. I think 
Mr. Hurd has legislation to make that permanent for all 
passengers.
    Can you just comment on the fraud piece and how we can make 
sure that bad guys are not using the system to their advantage? 
I mean, you may match their biometrics to their passport, but 
if it is not the right person then we have a whole other 
program.
    Mr. Wagner. Correct. So as travel documents' physical 
security has gotten a lot better over the years, we have seen 
the amount of altered or counterfeit-type documents decrease 
tremendously, especially in the commercial air environment.
    Where the risk remains, though, is a person with a 
legitimate document that does not belong to them--a lost 
document, a stolen document, a borrowed document. That is 
really where the risk is because it is a good physical 
document. You have to compare the person against it.
    Most of the countries issue now electronic passports that 
at least at the minimum have a photograph on there, including 
U.S. travel documents. So what we are able to do with the 
facial comparison technology is read that chip, open it up, 
take a picture of the traveler, compare the two using an 
algorithm, and tell us with some certainty or probability that 
it does belong to that person.
    So what we are seeing--we have caught a couple of 
impostors, what we call them--a person using the--a legitimate 
document that doesn't belong to them. Just a couple of weeks 
ago at JFK we had a woman arrive on a flight from Ghana, I 
believe, that presented a U.S. passport. The officer looked at 
it; didn't quite think the picture matched up to the traveler, 
put her in front of the camera, recorded it, and it turned out 
that no, she was not the document-holder. She turned out to be 
a person from Liberia that had been denied a visa previously 
last year.
    But knowing that she had a U.S. passport wouldn't routinely 
subject her to fingerprints upon entry. But using this 
comparison to the picture on the photograph of the document she 
presented, we could confirm she is an impostor. We then can 
fingerprint her, found out what her real identity was and the 
fact that she was denied a visa.
    So it is incredibly helpful technology for our office to be 
able to help make that determination of who the true document-
holder is.
    Ms. McSally. Great. Thanks.
    Mr. Healy, if you were in charge of--with unlimited 
resources, in order to be able to do you job, to whittle down 
those who have overstayed and quickly be able to locate them 
and take appropriate action, what else would you need? We heard 
the biometric exit would help whittle down those false 
positives. What else would you need?
    I am also interested in local law enforcement are often 
maybe the first people that are encountering individuals, the 
information flow between the Federal and the local officials, 
and what access they may have. But what is your wish list in 
order to address this issue?
    Mr. Healy. I think we are going in the right direction, 
ma'am, in terms of the work that we are doing, from where we 
have come from to where we are now. The system is not perfect. 
No system is perfect.
    But all the players that need to be engaged are engaged. 
CBP is in the process of pulling it together in terms of the 
automation process, which is making it a lot easier for us.
    In terms of our local engagement, through our field 
offices, through our task forces we are tied at the hip with 
our local States and local partners. So they also can be a part 
of this process, as well.
    So in terms of what I would hope for, I would just hope 
that we would just continue to move in the direction that we 
are moving. I think that we will get there soon.
    Ms. McSally. Thanks.
    I do want to follow up on Mr. Barletta's question--I had 
thought about that myself in preparing for this hearing--is 
right now if somebody overstays less than--what is it? They 
can't come in for 2 years if it was a short overstay, and they 
can't come in for 10 years if it was a long overstay? Yes, 
okay, 3 and 10. Those are really the only disincentives or 
accountability items.
    Would it be valuable to provide some other accountability 
to these overstayers--to make it a crime, to have some fines, 
to have maybe a little bit of a harsher penalties of not being 
able to reenter? Are there any disincentives that we should 
consider--thoughtful disincentives?
    Mr. Wagner. Well, what we do see is people that overstay, 
as time goes on, you know, those numbers do get whittled down, 
like you mentioned. You know, a lot of people do leave at some 
point, just late or later.
    They are subject to that 3-year bar or 10-year bar of 
getting a visa then to come back. They certainly cannot use the 
Visa Waiver Program again. You know, their Estas are 
invalidated; that information goes to State, and then they have 
to go to State and apply and really state their case as to what 
why they overstayed.
    So once they do depart the United States or are removed 
from the United States, it is going to be very difficult to 
come back in and get a visa unless they overcome with a waiver, 
and there are procedures to do that, or wait out the bar of 
inadmissibility.
    I don't know if fining them or making it a criminal act 
would change the behavior of the people that are going to stay 
here and not leave.
    Ms. McSally. Are individuals who left, say, 60 days late 
considered the same as individuals you caught 60 days later and 
put out? Like, basically it is the same punishment that they 
left voluntarily or you caught them and deported them? Because 
that is different behavior.
    Mr. Wagner. I believe it would be the same.
    Ms. McSally. Okay.
    Mr. Wagner. I will have to think about it.
    Ms. McSally. Do all of you--I mean, do you feel that those 
disincentives are adequate?
    Mr. Wagner. I think people that are going to stay here 
permanently are--will try to stay here permanently. It will be 
difficult to come back in once a person leaves that has been 
identified as an overstay, so it is going be difficult to get a 
travel document, to get on board a plane to come back.
    Ms. McSally. Okay.
    I think we have exhausted a lot of items here. Let me give 
the opportunity for any of the members of the panel to share 
any other perspectives you weren't asked about that weren't in 
your testimony that you feel are important, even with some of 
the lines of questioning that came from the entire group of 
Members here. Is there anything else you want to leave with us 
that we haven't considered on this issue?
    Mr. Healy. Ma'am, just for the record, I wanted to clarify 
I have that number. Out of the 1,900 that you asked about----
    Ms. McSally. Yes.
    Mr. Healy [continuing]. One hundred thirty of those were 
criminal.
    Ms. McSally. Got it. So it is 80 of 130, not 80 of 1,910, 
right? You know, 80 convictions of 130----
    Mr. Healy. That is correct.
    Ms. McSally [continuing]. Criminal arrests.
    Mr. Healy. That is correct, ma'am.
    Ms. McSally. That is a little bit of a higher rate of 
conviction there.
    Mr. Healy. Yes, ma'am.
    Ms. McSally. Okay, great. Anything else?
    Mr. Wagner. I would just like to add that, you know, just 
to follow up on what we discussed about the--our plan is to 
deploy the solution in fall 2018. The Secretary has charged us 
with doing that. We have put together a strategy to get there.
    It is contingent on the Government procurement process to 
spend the fees that Congress has made available to us to do 
this as a reference of $1 billion over the 10 years to do that. 
So there is a quite extensive procurement process, several 
steps that we will be engaging the industry and doing request 
for proposals over the next, you know, 18 months to be able to 
get there.
    So there are some tight deadlines to do this, but we will 
be going through that structured procurement process to be able 
to take that money and then put it onto a contract and be able 
to spend it to deploy the solution. So that is all.
    Ms. McSally. Great.
    Any other--Mr. Burns. Ms. Burriesci. Anything else to add?
    Ms. Burriesci. No.
    Mr. Burns. No.
    Ms. McSally. Great, thanks.
    I appreciate the hard job that you all have. There is 
obviously some differing perspectives about what is more 
important, you know, 1 percent or, you know, 480,000. I think 
at some point, you know, quantity has a quality all of its own 
when you are talking about the magnitude of individuals, and it 
only takes one person with bad intentions, you know, to be a 
risk to public safety and National security.
    So we don't need a hyperbolize it, but we need to be 
vigilant about doing everything we can to make sure that those 
that are trying to use our system and our processes that are 
trying to do us harm are very quickly identified and the public 
remains safe. So I appreciate all the efforts that are being 
made related to that.
    I think we do have a lot of--a lot of work has been done, 
but we do have a lot of work left to do, and we look forward to 
partnering with you to make sure that we are able to close some 
these gaps that are still there in technology and procedures 
and whatever else is required.
    So I appreciate your testimony today and appreciate all the 
work that you all do.
    I also want to thank the Members for their questions. The 
Members of the committee may have some additional questions for 
the witnesses, and I think we have already had some for the 
record, so please get back. We would ask you to respond to 
additional questions in writing. Pursuant to committee rule 
VII(e), the hearing record will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 11:49 a.m., the subcommittee was adjourned.]

                                 [all]



</pre></body></html>
